No.
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
LEOBARDO VALLADARES,
Petitioner,
v.
CRAIG KOENIG, Warden,
Respondent.
_____________________________________________________________
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________________________________
PETITION FOR WRIT OF CERTIORARI
__________________________________

FAY ARFA, A LAW CORPORATION
Fay Arfa, Attorney - SBN 100143
10100 Santa Monica Blvd., #300
Los Angeles, CA 90067
T: (310) 841-6805- F: (310) 841-0817
info@bestdefender.com
Attorney for Petitioner
LEOBARDO VALLADARES

QUESTIONS PRESENTED
I.

Did the Prosecution Fail to Prove Beyond a
Reasonable Doubt That Valladares Committed First
Degree Murder?

II.

Did Trial Counsel Render Ineffective Assistance by
Failing to Investigate and to Present a Trauma
Expert?

III.

Did the California Courts’ Unreasonable Refusal to
Hold a Federal Evidentiary Hearing, Entitle
Valladares to an Evidentiary Hearing?

IV.

Did the Trial Court Deprive Valladares of Due
Process and a Fair Trial by Prejudicially Instructing
the Jury with CALCRIM Nos. 3472 and/or 3474?

V.

Did the Trial Court’s Failure to Issue a Unanimity
Instruction Deprive Valladares of Due Process and a
Fair Trial?

VI.

Did the Trial Court’s Refusal to Allow the Jury to
Test Fire the Gun Deprive Valladares of Due Process
and a Fair Trial?

VII. Did the Cumulative Effect of the Errors Render
Valladares’ Trial Unfair?

i

TOPICAL INDEX
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
FACTUAL AND PROCEDURAL BACKGROUND . . . . . . . . . 3
REASONS TO GRANT CERTIORARI . . . . . . . . . . . . . . . . . . . 7
I.

THE PROSECUTION FAILED TO PROVE BEYOND A
REASONABLE DOUBT THAT VALLADARES
COMMITTED FIRST DEGREE MURDER . . . . . . . . . . 7

II.

TRIAL COUNSEL RENDERED INEFFECTIVE
ASSISTANCE BY FAILING TO INVESTIGATE AND
TO PRESENT A TRAUMA EXPERT . . . . . . . . . . . . . . . 8

III.

THE CALIFORNIA COURTS’ UNREASONABLE
REFUSAL TO HOLD A FEDERAL EVIDENTIARY
HEARING, ENTITLES VALLADARES TO AN
EVIDENTIARY HEARING . . . . . . . . . . . . . . . . . . . . . . . 12

IV.

THE TRIAL COURT DEPRIVED VALLADARES OF
DUE PROCESS AND A FAIR TRIAL BY
PREJUDICIALLY INSTRUCTING THE JURY WITH
CALCRIM NOS. 3472 AND/OR 3474 . . . . . . . . . . . . . . . 14

V.

THE TRIAL COURT’S FAILURE TO ISSUE A
UNANIMITY INSTRUCTION DEPRIVED
VALLADARES OF DUE PROCESS AND A FAIR
TRIAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
ii

VI.

THE TRIAL COURT’S REFUSAL TO ALLOW THE
JURY TO TEST FIRE THE GUN DEPRIVED
VALLADARES OF DUE PROCESS AND A FAIR
TRIAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

VII. THE CUMULATIVE EFFECT OF THE ERRORS
RENDERED VALLADARES’ TRIAL UNFAIR . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
APPENDIX
A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Ninth Circuit Order
B . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. District Court Judgment
U.S. District Court Order Accepting R&R
U.S. District Court R&R
C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . CA Supreme Court Order
CA Court of Appeal Opinion

iii

TABLE OF AUTHORITIES
FEDERAL CASES
Barefoot v. Estelle, 463 U.S. 880 . . . . . . . . . . . . . . . . . . . . . . . . . 24
Cool v. United States, 409 U.S. 100 (1972) . . . . . . . . . . . . . . . . . 17
Cullen v. Pinholster, 563 U.S. 170 (2001) . . . . . . . . . . . . . . . . . . 13
Cupp v. Naughten, 414 U.S. 141 (1973) . . . . . . . . . . . . . . . . . . . . 15
Earp v. Ornoski, 431 F.3d 1158 (9th Cir. 2005) . . . . . . . . . . . . . 14
Estelle v. McGuire, 502 U.S. 62 (1991) . . . . . . . . . . . . . . . . . . 15, 17
Harrington v. Richter, 562 U.S. 86 (2011) . . . . . . . . . . . . . . . 11, 14
Irvin v. Dowd, 366 U.S. 717, 81 (1961) . . . . . . . . . . . . . . . . . . . . 22
Jackson v. Virginia, 443 U.S. 307 1979) . . . . . . . . . . . . . . . . . . . . 7
Johnson v. Finn, 665 F.3d 1063 (9th Cir. 2011) . . . . . . . . . . . . . 14
Johnson v. Louisiana, 406 U.S. 359 (1972) . . . . . . . . . . . . . . . . . 20
Karis v. Calderon, 283 F.3d 1117 (9th Cir. 2002) . . . . . . . . . . . . 23
Mendez v. Knowles, 556 F.3d 757 (9th Cir. 2009) . . . . . . . . . . . . 17
Nunes v. Mueller, 350 F.3d 1045 (9th Cir. 2003) . . . . . . . . . . . . . 13
Silva v. Woodford, 279 F.3d 825 (9th Cir. 2002) . . . . . . . . . . . . . 11
Slack v. McDaniel, 529 U.S. 473 (2000) . . . . . . . . . . . . . . . . . . . . 24
Slovik v. Yates, 556 F.3d 747 (9th Cir. 2009) . . . . . . . . . . . . . . . . 3
Smith v. Phillips, 455 U.S. 209 (1982) . . . . . . . . . . . . . . . . . . . . . 22
iv

Strickland v. Washington, 466 U.S. 668 (1984) . . . . . . . . . 9, 11, 12
Taylor v. Maddox, 366 F.3d 992 (9th Cir. 2004) . . . . . . . . . . . . . 13
Turner v. Louisiana, 379 U.S. 466 (1965) . . . . . . . . . . . . . . . . . . 22
United States v. Brewer, 783 F.2d 841 (9th Cir. 1986) . . . . . . . . 23
United States v. George, 56 F.3d 1078 (9th Cir. 1995) . . . . . . . . 23
United States v. Lentz, 383 F.3d 191 (4th Cir. 2004) . . . . . . . . . . 8
Williams v. Woodford, 384 F.3d 567 (9th Cir. 2004) . . . . . . . . . . 14
STATE CASES
People v. Anderson, 70 Cal.2d 15 (1968) . . . . . . . . . . . . . . . . . . . . 8
People v. DeLeon, 10 Cal.App.4th 815 (1992) . . . . . . . . . . . . . . . 17
People v. Engelman, 28 Cal. 4th 436 (2002) . . . . . . . . . . . . . . . . 19
People v. Hecker, 109 Cal. 451 (1895) . . . . . . . . . . . . . . . . . . . . . 16
People v. Jones, 51 Cal.3d 294 (1990) . . . . . . . . . . . . . . . . . . . . . 19
People v. Keys, 62 Cal.App.2d 903 (1944) . . . . . . . . . . . . . . . . . . 17
People v. Mickle, 54 Cal. 3d 140 (1991) . . . . . . . . . . . . . . . . . . . . 19
People v. Pope, 23 Cal.3d 412 (1979) . . . . . . . . . . . . . . . . . . . . . . 13
People v. Tamkin, 62 Cal. 468 (1882) . . . . . . . . . . . . . . . . . . . . . . 17

v

FEDERAL STATUTES
28 U.S.C.§ 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 3, 13, 14
CA STATE STATUTES
Cal. Const. art. I, § 16 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Cal. Penal Code § 187 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Penal Code § 12022.53 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

vi

No.
IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
LEOBARDO VALLADARES,
Petitioner,
v.
CRAIG KOENIG, Warden,
Respondent.
_______________________________________________________
Petitioner, LEOBARDO VALLADARES, petitions for a
writ of certiorari to review the United States Court of Appeals for
the Ninth Circuit’s April 21, 2021 Order denying Valladares’
request for a certificate of appealablity. (Appendix A)
OPINION BELOW
On April 21, 2021, the Ninth Circuit Court of Appeals
denied Valladares’ request for a certificate of appealablity.
(Appendix A)
JURISDICTION
The jurisdiction of this Court is 28 U.S.C. § 2254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const. Amends. V, VI, XIV; 28 U.S.C.§ 2254.

1

STATEMENT OF THE CASE
The district attorney charged Valladares with the
September 2013 murder of Francisco Torres. Cal. Penal Code §
187(a). The prosecutor also alleged Valladares discharged a
firearm. Cal. Penal Code § 12022.53(d).
The jury found Valladares guilty as charged and found the
firearm enhancement true. The trial court sentenced Valladares
to fifty years to life in state prison.
Valladares timely appealed. (Case No. G052613.)
On August 31, 2017, the CCA denied Valladares’ direct appeal.
Valladares next filed a petition for review in the California
Supreme Court. (No. S244602) On December 13, 2017, the CSC
denied review. (Appendix C)
Valladares filed a petition for writ of habeas corpus with his
direct appeal. (G053913) On August 31, 2017, the CCA denied
Valladares’ habeas petition. Valladares next filed a petition for
review in the California Supreme Court. (No. S244604) On
December 13, 2017, the CSC denied review.
Valladares filed a habeas petition in the federal district
court. On January 19, 2020, the federal district court denied the
2

petition. (No. 8:19-cv-00487-JLS-JDE) (Appendix B)
On April 21, 2021, the Ninth Circuit denied Valladares’
request for a Certificate of Appealability. (Appendix A)
FACTUAL AND PROCEDURAL BACKGROUND1
On the evening of September 14, 2013, Maria Huerta
arranged to meet her friend Valladares at a Stanton bar
where they met weekly to drink and listen to music.
Valladares, a regular patron of the bar, was friendly and
respected by the waitresses and other staff.
When Huerta arrived, Valladares stood in front
of the bar talking to friends. After about 30 minutes,
Huerta and Valladares walked inside. They each
consumed six beers over the next two hours. Huerta
did not feel intoxicated or “buzzed,” and Valladares
did not appear intoxicated.
According to Huerta, around the 2:00 a.m.
closing time, a waitress who knew Valladares
complained to him that Francisco Torres was being
rude and disrespectful to her. The waitress, Azucena
Mendoza, testified she knew Vallardares as a regular
of the bar. At some point during the evening, she was
walking and holding beer bottles when Torres, who
had been sitting at the bar, got up, grabbed her elbow
or bicep, and asked her to bring him a beer. When he
pulled on her arm, she thought he was going to fall.
He also wanted her to sit and have a drink with him.
Mendoza declined to get Torres another beer because
he was drunk. He insulted her, called her names, and
said she was a “whore.” A security guard intervened
and Mendoza walked over to Valladares’s table to

The facts, taken from the California Court of Appeal’s
written decision on direct review are presumed correct. 28 U.S.C.
§ 2254(e)(1); Slovik v. Yates, 556 F.3d 747, 749 n.1 (9th Cir. 2009).
1

3

calm down. She told Valladares, who did not appear
intoxicated, what happened, pointed Torres out and
described how Torres had frightened and insulted
her.
A few minutes later, Huerta, Valladares,
Mendoza and another waitress exited the bar, where
they spoke for about a minute. At some point,
Valladares said he was going to talk to Torres about
disrespecting Mendoza. Mendoza, who returned to
the bar, may have told him not to do it, and not to get
involved. Huerta and Valladares remained outside
chatting with others who emerged, and smoking
cigarettes.
Huerta testified when Torres exited the bar,
Valladares told Huerta, “wait for me here. I’m going
to go talk to him.” Valladares did not seem agitated.
Torres walked out of the bar alone and down the
sidewalk in front of an adjacent laundromat.
Valladares followed Torres.
When Valladares caught up to Torres the men
began arguing. Torres shoved Valladares against a
glass window and Valladares fell to the ground.
Valladares got up after Torres shoved him, and
attempted to shove Torres back, but Torres moved out
of the way. Torres approached Valladares in a
fighting or defensive stance. Valladares then pulled
out a gun from his belt area, pointed it at Torres’s
face, and fired from about 12 inches away. Torres fell
down lying face up. Valladares shot Torres in the
chest, put the gun in his waistband, and took off
running.
Huerta testified she heard only one shot, but
told a police officer a day after the incident she
thought she heard two shots. She saw Valladares’s
hand shake or “pull back” twice. The second time was
within a split second of the first; there was no “pause
in between seeing his hand shake the first time and
the second time.” Huerta described the gun as a “gold,
brown” revolver.
4

Surveillance video showed Valladares and
Huerta standing by the door around 1:50 a.m.,
chatting, smoking, and interacting with various
people who emerged form the bar. Valladares moved
over to a planter area and continued to smoke and
conversed with various men. At about 1:54 a.m.,
Valladares walked over to the bar door as Torres
emerged. Valladares followed Torres as he walked
north along the sidewalk abutting the bar and other
businesses in the strip mall. The men conversed or
argued for about 20 seconds, during which Valladares
gestured back toward the bar. Suddenly, Torres
punched or shoved Valladares, who stumbled
backward and out of the frame. Torres approached
Valladares with his hands raised in a fighting
position. Valladares regained his footing and the men
threw a few punches at each other as Valladares
danced around. Although the video does not clearly
show this part of the incident, Valladares removed
his gun and shot Torres, who fell on his back with his
head hanging off the curb. Valladares walked quickly
away after the shooting, followed by Huerta.
The evidence established Valladares fired two
rounds, one striking Torres in the left eye, and
another striking him in the middle right side of the
chest. The injury to the eye had stippling, or
unburned gunpowder, around the entry point,
suggesting the gun had been fired at close range.
Both wounds were fatal, and Torres bled to death.
Less than nine seconds had elapsed since Torres
punched or shoved Valladares. Investigators found no
weapons on or around Torres’s body, and Torres did
not have cuts or bruises on his hands. Torres’s blood
alcohol content registered at 0.20 percent.
Samuel Carcamo, who knew Valladares from
the bar, testified Valladares pulled out the gun,
pointed it at Torres’s forehead, and fired. Torres went
down. Valladares started to walk away, but then
“took a step back, and . . . shot [Torres] again,”
5

this time in the stomach.
Investigators found Valladares’s broken cell
phone on the ground near Torres’s body. Four days
after the shooting, deputies arrested Valladares at a
relative’s home. Interviewed at the sheriff’s
department, Valladares denied having a gun or
shooting Torres, even after investigators showed him
surveillance video and told him witnesses identified
him as the shooter. He explained he walked toward
some people near the video store when he saw people
arguing. A man he did not know said “what” to him,
and he replied, “what’s up?” The man struck him,
causing him to hit the window and fall down,
dropping his cell phone. He denied seeing the person
previously in the bar. “Somebody fired,” a gun, but he
did not know who, and he saw someone “laying
there.” He walked to a friend’s home because he did
not want problems with the police, as he previously
had been deported. Valladares claimed he had six
beers before he arrived at the bar, two more at the
bar, and was “a little drunk.”

6

REASONS TO GRANT CERTIORARI
I.

THE PROSECUTION FAILED TO PROVE BEYOND A
REASONABLE DOUBT THAT VALLADARES
COMMITTED FIRST DEGREE MURDER
The prosecution failed to prove that Valladares committed

premeditated, deliberate first degree murder. See Jackson v.
Virginia, 443 U.S. 307, 317-320 (1979). The killing resulted from
a spontaneous fistfight, during which Torres threw the first
punch. After hitting Valladares and knocking him to the ground,
Torres again approached Valladares. Then, Valladares fired.
The RR finds that the California Court of Appeal (CCA)
reasonably found that Valladares approached Torres armed with
a concealed gun knowing that if things went awry he could shoot
and kill someone. RR 14. The RR finds that Valladares had a
motive to kill Torres because, inter alia, he needed to “uphold his
reputation as a respected patrol who could resolve problems.” RR
14.
Valladares disagrees. Valladares never came to the bar
intending to kill anyone. He did not bring the gun to kill anyone.
He carried a loaded gun because the Oasis bar had a history of
altercations. (2RT 171, 172, 184, 188). He did not know Torres
7

would harass a waitress, that the waitress would complain to him
and that Torres would physically attack him. Valladares fired the
gun only after Torres approached him.
The RR finds that the manner of killing, namely, that
Valladares fired two shots supports a finding of premeditation
and deliberation. RR 14. Valladares disagrees. The killing
resulted from the culmination of an argument, struggle, and/or a
rash and impulsive act. The killing resulted from a “mere
unconsidered or rash impulse hastily executed.” People v.
Anderson, 70 Cal.2d 15, 26, 27 (1968). Valladares killed Torres
because Valladares feared for his life not because of an
intentional, deliberate pre-existing plan to kill Torres. Cf.,
United States v. Lentz, 383 F.3d 191,203 (4th Cir. 2004) (Lentz
lured Doris to his home and killed her to avoid splitting their
marital assets.)
II.

TRIAL COUNSEL RENDERED INEFFECTIVE
ASSISTANCE BY FAILING TO INVESTIGATE
AND TO PRESENT A TRAUMA EXPERT

Expert opinion would have proved that Valladares acted
from an instinctual, survival reaction and did not premeditate the
killing. A trauma expert would have testified that Valladares
8

acted consistently with an extreme fight-flight reaction secondary
to palpable, perceived fear for his life. (Exh. A ¶ 2)2 The jury
would have found Valladares not guilty of murder if the jury
understood Valladares’ state of mind when Torres attacked him.
Trial counsel’s inexplicable failure to call a trauma expert
deprived Valladares of the effective assistance of trial counsel.
Strickland v. Washington, 466 U.S. 668, 687 (1984).
The RR finds that the California Supreme Court’s rejection
of his claim was not contrary to Strickland because Strickland
affords trial counsel deference. RR 33-34. The RR then attacks
Dr. Booker’s report as based on the facts from the opening brief.
The RR finds that the opening brief was “not in existence at the
time of trial.” RR 36. The RR overlooks that the statement of
facts in the opening brief was taken directly from the trial
transcripts. The trial transcripts reflect the facts elicited at trial.
The opening brief contains citations to the record on appeal. The
facts in the record on appeal were in existence at trial.
The RR disputes Dr. Booker’s opinion and speculates about

The Exhibits referenced refer to the exhibits attached to
Valladares’ habeas petition. (Dkt. 2)
2

9

trial counsel’s tactical reasons for failing to call a trauma expert.
RR 36-37. The RR speculates that the prosecutor would have,
through cross-examination, highlighted the incriminating
testimony against Valladares and the prosecution would have
called a rebuttal expert to highlight the choices Valladares made.
RR 37.
Valladares disagrees. Dr. Booker would have opined that
Valladares' perceived fear would have led to autonomic-nervoussystem activation, causing an acute survival response, namely,
flight. (Exh. A at 6) Dr. Booker would have testified that
“Valladares suffered from an extreme fight-flight reaction
secondary to palpable, perceived fear for his life. He reacted
instinctively to extinguish the threat in one contiguous shooting.
Even though two shots were fired, the number of shots was
inconsequential to the episode. Once the episode, and fight flight
system engaged, the “switch" was activated and could not be
consciously deactivated.” (Exh. A at 6)
The RR speculates, without any proof such as a counter
declarations from an expert, from the prosecutor, or even trial
counsel, that, because the prosecutor would have cross-examined
10

the trauma expert and would have called a prosecution expert to
counter the defense trauma expert, no Strickland error resulted.
RR 36-37.
Valladares disagrees. When determining whether counsel
conducted a reasonable strategy, courts may not "indulge in 'post
hoc rationalization' for counsel's decisionmaking that contradicts
the available evidence of counsel's actions." Harrington v. Richter,
562 U.S. 86, 109 (2011)
The RR finds no prejudice resulted from trial counsel’s
failure to present a trauma expert and the California Supreme
Court reasonably rejected Valladares’ claim. RR 37. Valladares
disagrees because prejudice is found where "there is a reasonable
probability that, but for counsel's unprofessional errors, the result
of the proceeding would have been different." Strickland at 694.
The errors should be considered cumulatively to assess prejudice.
Id. at 695, 696; Silva v. Woodford, 279 F.3d 825, 834 (9th Cir.
2002).
Valladares did not initiate the altercation. After Valladares
approached and spoke to Torres, Torres violently punched
Valladares with such force that he knocked Valladares to the
11

ground. Valladares got up and Torres again approached
Valladares. Valladares then shot Torres twice. (Exh. A ¶ 3) A
trauma expert would have explained that Valladares acted from a
self-defense/self-preservation instinct.
Trial counsel’s performance fell below an objective standard
of reasonableness and prejudice resulted, namely, “‘“a reasonable
probability that, but for counsel's unprofessional errors, the result
of the proceeding would have been different.” [Citation.]’ ” See
Strickland, 466 U.S. at 688, 694.
III.

THE CALIFORNIA COURTS’ UNREASONABLE
REFUSAL TO HOLD A FEDERAL
EVIDENTIARY HEARING, ENTITLES
VALLADARES TO AN EVIDENTIARY
HEARING

The RR finds no evidentiary hearing necessary because the
record refutes Valladares’ factual allegations and the AEDPA
requires federal courts to review state court decisions based on
the record before the state court. RR 38.
Valladares disagrees. Valladares sought an evidentiary
hearing at every level of the state habeas proceedings and again
in federal court. The California courts should have held an
evidentiary hearing to allow Valladares to call trial counsel as a
12

witness and prove that trial counsel rendered ineffective
assistance. See, e.g., People v. Pope, 23 Cal.3d 412, 426 (1979) (An
evidentiary hearing allows trial counsel to fully describe “his or
her reasons for acting or failing to act in the manner complained
of.")
Valladares made a prima facie showing for ineffective
assistance of counsel supported by the record. Assuming the
record and other evidence to be true (see Cullen v. Pinholster, 563
U.S. 170, 188 (2001) ) nothing more was required. See Nunes v.
Mueller, 350 F.3d 1045, 1054 (9th Cir. 2003).
Because no AEDPA deference is due under 2254(d)(2) or
(e)(1) where the state has made an "unreasonable" determination
of the facts, no deference is due in federal court to the state
court’s disputed findings of fact. Taylor v. Maddox, 366 F.3d 992,
1001 (9th Cir. 2004) ("Where a state court makes evidentiary
findings without holding a hearing and giving petitioner an
opportunity to present evidence, such findings clearly result in an
"unreasonable determination" of the facts.").
Because the California courts unreasonably denied
Valladares’ claim without holding an evidentiary hearing, this
13

Court should hold an evidentiary hearing. See Pinholster, 563
U.S. at 183-184 (evidentiary hearing may be proper where §
2254(d) does not preclude habeas relief); Harrington v. Richter,
562 U.S. at 86 (where petitioner satisfies § 2254(d), claim may be
relitigated in federal court); Johnson v. Finn, 665 F.3d 1063, 1069
n.1 (9th Cir. 2011)(where state court decision not entitled to
AEDPA deference, even after Pinholster it was still proper for
district court to hold evidentiary hearing); see also Earp v.
Ornoski, 431 F.3d 1158, 1167 (9th Cir. 2005) (evidentiary
“hearing is required if: ‘(1) [the defendant] has alleged facts that,
if proven, would entitle him to habeas relief, and (2) he did not
receive a full and fair opportunity to develop those facts’”)(quoting
Williams v. Woodford, 384 F.3d 567, 586 (9th Cir. 2004)).
IV.

THE TRIAL COURT DEPRIVED VALLADARES
OF DUE PROCESS AND A FAIR TRIAL BY
PREJUDICIALLY INSTRUCTING THE JURY
WITH CALCRIM NOS. 3472 AND/OR 3474

Over defense objection, the trial court erroneously issued
two instructions, namely CALCRIM No. 3472 (“Right to SelfDefense: May Not Be Contrived”) and CALCRIM No. 3474
(“Danger No Longer Exists or Attacker Disabled”). The evidence

14

failed to support CALCRIM No. 3472 because Valladares never
provoked a fight or quarrel with the intent to create an excuse to
use force. The evidence failed to justify CALCRIM No. 3474
because the danger from Torres never dissipated. Valladares’
right of self-defense continued during both shots, not just the first
shot as the prosecutor argued.
The RR recognizes that an instructional error rises to a
cognizable federal claim if the error “so infected the entire trial
that the resulting conviction violates due process.” Estelle v.
McGuire, 502 U.S. 62, 72 (1991) (quoting Cupp v. Naughten, 414
U.S. 141, 147 (1973)). RR 15.
But, the RR finds that the CCA correctly found no error nor
due process violation occurred because the evidence supported the
instruction. RR 19-20. Valladares disagrees. The CCA
unreasonably found that Valladares followed Torres with a
concealed loaded revolver with the intent to provoke an argument
with him and intended to provoke Torres.
Over defense objection, the court instructed the jury that:
"A person does not have the right to self-defense if he provokes a
fight or quarrel with the intent to create an excuse to use force."
15

CALCRIM No. 3472. The CCA overlooked that a verbal
confrontation does not make the person the “initial aggressor.”
CALCRIM No. 3472 applies to someone who starts a physical
attack and not someone who starts a verbal argument. People v.
Hecker, 109 Cal. 451, 463 (1895).
No evidence justified the issuance of CALCRIM 3472
because Valladares intended only to talk to Torres, not to fight or
kill him. Torres physically assaulted Valladares by knocking
Valladares to the ground. Although Valladares responded by
shooting and killing Torres, no evidence supported the notion that
Valladares physically attacked Torres or initiated a physical
altercation.
The RR finds that the CCA reasonably found that the trial
court properly gave CALCRIM No. 3474 which allowed the jury to
determine if Valladares could continue to defend himself and
whether Torres was still alive and disabled after the first shot
and if any danger from Torres existed. RR 21. Valladares
disagrees. CALCRIM No. 3474 did not apply, because, even after
Valladares shot Torres, Valladares could not presume Torres had
been incapacitated. Torres could have been armed and capable of
16

killing Valladares by merely lifting his arm and firing. Torres,
too, did not get up and walk or run away. See People v. Tamkin,
62 Cal. 468 (1882); People v. Keys, 62 Cal.App.2d 903, 916 (1944)
(As victim ran away, defendant shot him in the back); People v.
DeLeon, 10 Cal.App.4th 815, 820, 825 (1992) (Defendant fired
shots as assailants turned and walked away.)
A reasonable likelihood exists that the jury has applied the
challenged instruction in a way that violates the Constitution.
Estelle, 502 U.S. at 72. The trial court improperly limited
Valladares’ right to self defense and violated the constitution by
making a conviction of a lesser offense more onerous for
Valladares and less onerous for the prosecution. See Cool v.
United States, 409 U.S. 100, 104 (1972); Mendez v. Knowles, 556
F.3d 757, 768 (9th Cir. 2009).
V.

THE TRIAL COURT’S FAILURE TO ISSUE A
UNANIMITY INSTRUCTION DEPRIVED
VALLADARES OF DUE PROCESS AND A FAIR
TRIAL

Valladares fired two bullets “almost simultaneous[ly]” and
seemed to occur at the same time. (6RT 987) The coroner
testified both wounds were fatal; she could not determine which

17

shot occurred first. (6RT 987) She testified “both of them [the
gunshots] caused the death. . . . It’s not either/or. It’s just the
both of them are fatal wound [sic].” (6RT 993)
The trial court found that, if the first shot killed Torres,
“the second shot was shooting into the dead body.” But the trial
court also found, if Torres survived the first shot, the “second shot
is a killing shot and it is to make sure the guy is dead.” (6RT
1055) The prosecution’s “two shot” theory allowed the jury to find
that, because Valladares fatally shot Torres in the eye and then
shot Torres once in the chest, Valladares may not have
premeditated Torres’ murder when he fired the first shot, but
definitely committed first degree premeditated and deliberate
murder when he fired the second shot.
The prosecution never elected the act upon which the
homicide rested. The evidence showed both shots killed Torres
and raised a substantial possibility that both shots were
simultaneously fired in self-defense. The trial court should have
issued a unanimity instruction to insure the jury unanimously
decided which shot killed Torres.
The RR finds that no clearly established Supreme Court
18

law recognizes a right to a unanimous jury. RR 24-25. The RR
tries to distinguish Ramos v. Louisiana (Case No. 18-5924), a case
that will decide if the 14th Amendment fully incorporates the
Sixth Amendment guarantee of a unanimous verdict. RR 25 The
RR overlooks that Ramos’ case hinges on whether the Sixth
Amendment’s guarantee of a unanimous jury applies to the
states. The RR also finds that Ramos would not apply to
Valladares’ case because that was not the law at the time of the
state court’s decision. RR 25. Valladares disagrees.
At the time of the CCA’s decision, California required a
unanimous verdict from all twelve jurors in a criminal trial. See
Cal. Const. art. I, § 16; People v. Engelman, 28 Cal. 4th 436, 442
(2002). Regardless of whether 12 or 10 out of 12 jurors must
agree, due process requires a minimum number of jurors agree.
The unanimity requirement is constitutionally rooted in the
principle that a criminal defendant is entitled to a verdict in
which all 12 jurors concur, beyond a reasonable doubt, on each
count charged. People v. Jones, 51 Cal.3d 294, 305, 321 (1990);
People v. Mickle, 54 Cal. 3d 140, 178 (1991).
The RR also overlooks that, once state law has conferred a
19

right to jury unanimity, the federal Constitution demands that
each juror be convinced of the defendant’s guilt beyond a
reasonable doubt. Otherwise, California would have amended its
Constitution to provide for nine-to-three verdicts in criminal
cases. See, e.g., Johnson v. Louisiana, 406 U.S. 359 (1972). If
California did so, the federal Constitution would require that at
least nine of the jurors must be convinced of guilt beyond a
reasonable doubt. See id. at 362–363.
California has chosen, instead, to demand 12-0 verdicts in
criminal cases. The federal Constitution concomitantly requires
that all 12 jurors voting to convict must be convinced that the
defendant is guilty of the charged crime beyond a reasonable
doubt. Otherwise, the reasonable doubt requirement would
become meaningless.
The RR finds that no unanimity instruction was required
because the CCA reasonably found that Valladares fired the two
gunshots in rapid succession in a single course of conduct. RR 26.
Valladares disagrees because two distinct acts occurred and the
prosecutor theorized that, because Valladares fatally shot Torres
in the eye and then shot Torres once in the chest, Valladares may
20

not have premeditated Torres’ murder when he fired the first
shot, but definitely committed first degree premeditated and
deliberate murder when he fired the second shot. The trial court
should have issued a unanimity instruction to insure the jury
unanimously decided which shot or shots killed Torres.
VI.

THE TRIAL COURT’S REFUSAL TO ALLOW
THE JURY TO TEST FIRE THE GUN
DEPRIVED VALLADARES OF DUE PROCESS
AND A FAIR TRIAL

During deliberations, the jury asked to “. . . dry-fire the
pistol to feel actual trigger pressure?, . . . " (1CT 68; 2CT 467; 7RT
1205) Over defense objection, the trial court allowed the jury to
manipulate the gun, but not to dry fire it. (7RT 1205) Also, the
trial court instructed the jury not to “. . . conduct any tests or
experiments.’ You may handle the firearm but you may not dryfire it.” (1CT 69; 2CT 467)
The RR finds the claim procedurally barred because trial
counsel objected to allowing the jury to test fire the gun. But the
RR agrees to address Valladares’ claim. RR 28. The RR finds no
federal question exists because no established Supreme Court
precedent exists that allows a jury to conduct experiments during

21

deliberations. RR 28. The RR further finds that, because no
Supreme Court precedent exists, the state court’s adjudication of
the issue cannot be contrary to, or an unreasonable application of,
clearly established federal law. RR 29. The RR also finds any
error was harmless because Valladares shot Torres in the face
and then shot Torres again. RR29.
Valladares disagrees. The jury questioned the evidence
and, under the Sixth Amendment, Valladares had the right to be
tried by impartial jurors, see, e.g., Irvin v. Dowd, 366 U.S. 717,
722, 81 S. Ct. 1639, 1642, 6 L. Ed. 2d 751 (1961), and to have
those jurors decide his case solely on the evidence before them,
see, e.g., Smith v. Phillips, 455 U.S. 209, 217, 102 S. Ct. 940, 946,
71 L. Ed. 2d 78 (1982). See also Turner v. Louisiana, 379 U.S.
466, 472-73, 85 S. Ct. 546, 550, 13 L. Ed. 2d 424 (1965)(". . .
[T]rial by jury in a criminal case necessarily implies at the very
least that the 'evidence developed' against a defendant shall come
from the witness stand in a public courtroom where there is full
judicial protection of the defendant's right of confrontation, of
cross-examination, and of counsel.").
Federal courts have found similar jury experiments did not
22

constitute misconduct or inject extrinsic evidence into the
deliberations. See, e.g., United States v. George, 56 F.3d 1078,
1084 (9th Cir. 1995) (holding on direct appeal that no "new
evidence" resulted from jurors' use of magnifying glass to
examine fingerprint cards and gun) United States v. Brewer, 783
F.2d 841, 843 (9th Cir. 1986) (upholding on direct appeal jury's
use of magnifying glass to examine photographic evidence and
finding it was not "extrinsic evidence" because no one asserted
the jurors understood the magnifying glass itself to have any
bearing on the case).
The failure to allow the jury to test fire the gun deprived
Valladares of his constitutional right to due process, a fair trial
and his right to have the jury decide his case.
VII. THE CUMULATIVE EFFECT OF THE ERRORS
RENDERED VALLADARES’ TRIAL UNFAIR
Contrary to RR’s finding that no cumulative error occurred
and the individual errors did not mandate relief, "[a]lthough no
single alleged error may warrant . . . relief, the cumulative effect
of errors . . . deprive[d] . . . [Valladares] of the due process right to
a fair trial." Karis v. Calderon, 283 F.3d 1117,1132 (9thCir. 2002).

23

CONCLUSION
A certificate of appealability should have been issued
because “(1) ' . . . jurists of reason would find it debatable
whether the district court was correct in its procedural ruling';
and (2) ' . . . jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional
right.'" Morris v. Woodford, 229 F.3d at 780.
A COA should also should have been issued under 28 U.S.
C. § 2253 because “. . . reasonable jurists could debate whether
(or, . . . agree that) the petition should have been resolved in a
different manner or that the issues presented were ‘adequate to
deserve encouragement to proceed further.’” Slack v. McDaniel,
529 U.S. 473 (2000) (quoting Barefoot v. Estelle, 463 U.S. 880, 893
and n. 4 (1983).)
Certiorari should be granted.
DATED: July 15, 2021
Respectfully submitted,
FAY ARFA, A LAW CORPORATION

/s Fay Arfa

______________________________
Fay Arfa, Attorney for Petitioner

24

APPENDIX

Case: 20-55095, 04/21/2021, ID: 12081716, DktEntry: 3, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
APR 21 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

LEOBARDO VALLADARES,
Petitioner-Appellant,
v.
CRAIG KOENIG, Acting Warden,

No.

20-55095

D.C. No. 8:19-cv-00487-JLS-JDE
Central District of California,
Santa Ana
ORDER

Respondent-Appellee.
Before:

GRABER and TALLMAN, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

APPENDIX A

Case 8:19-cv-00487-JLS-JDE Document 25 Filed 01/19/20 Page 1 of 1 Page ID #:3052

1
2
3

JS-6

4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

SOUTHERN DIVISION

11
12
13
14
15
16

LEOBARDO VALLADARES,
Petitioner,
v.
CRAIG KOENIG, Warden,
Respondent.

17

) Case No. 8:19-cv-00487-JLS (JDE)
)
)
) JUDGMENT
)
)
)
)
)
)
)
)

18
19
20
21
22

Pursuant to the Order Accepting Findings and Recommendation of the
United States Magistrate Judge,
IT IS ADJUDGED that the Petition is denied and this action is
dismissed with prejudice.

23
24

Dated: January 19, 2020

25
26
27

______________________________
JOSEPHINE L. STATON
United States District Judge

28

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 24 Filed 01/19/20 Page 1 of 2 Page ID #:3050

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

SOUTHERN DIVISION

11
12
13
14
15
16
17

LEOBARDO VALLADARES,
Petitioner,
v.
CRAIG KOENIG, Warden,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)

Case No. 8:19-cv-00487-JLS (JDE)
ORDER ACCEPTING FINDINGS
AND RECOMMENDATION OF
UNITED STATES MAGISTRATE
JUDGE

18
19

Pursuant to 28 U.S.C. § 636, the Court has reviewed the records and files

20

herein, including the Petition (Dkt. 1), the Answer to the Petition filed by

21

Respondent (Dkt. 13), the Traverse filed by Petitioner (Dkt. 18), the Report

22

and Recommendation (Dkt. 22, “R&R”) of the United States Magistrate

23

Judge, and the Objection to the R&R filed by Petitioner (Dkt. 23).

24

Having engaged in a de novo review of those portions of the R&R to

25

which objections have been made, the Court concurs with and accepts the

26

findings and recommendation of the Magistrate Judge.

27
28

IT IS THEREFORE ORDERED that:
1. Petitioner’s request for an evidentiary hearing is denied; and

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 24 Filed 01/19/20 Page 2 of 2 Page ID #:3051

1
2

2. Judgment be entered denying the Petition and dismissing this
action with prejudice.

3
4

Dated: January 19, 2020

5
6

______________________________
JOSEPHINE L. STATON
United States District Judge

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 1 of 38 Page ID #:2987

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

SOUTHERN DIVISION

11
12

LEOBARDO VALLADARES,
Petitioner,

13
14

v.

15

CRAIG KOENIG, Warden,
Respondent.

16
17

)
)
)
)
)
)
)
)
)
)
)
)

No. 8:19-cv-00487-JLS-JDE
REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE
JUDGE

18
19

This Report and Recommendation is submitted to the Honorable

20

Josephine L. Staton, United States District Judge, under 28 U.S.C. § 636 and

21

General Order 05-07 of the United States District Court for the Central District

22

of California.

23

I.

24

PROCEEDINGS

25

On March 12, 2019, Petitioner Leobardo Valladares (“Petitioner”),

26

through counsel, filed a Petition for Writ of Habeas Corpus by a Person in

27

State Custody (“Petition” or “Pet.”), together with a supporting memorandum

28

(“Pet. Mem.”). Dkt. 1-2. On August 26, 2019, Respondent filed an Answer

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 2 of 38 Page ID #:2988

1

and supporting memorandum (“Ans. Mem.”). Dkt. 13. Petitioner filed a

2

Traverse on October 9, 2019. Dkt. 18 (“Trav.”).

3
4

For the reasons discussed hereafter, the Court recommends that the
Petition be denied and the action be dismissed with prejudice.

5

II.

6

PROCEDURAL HISTORY

7

On August 4, 2015, an Orange County Superior Court jury found

8

Petitioner guilty of first degree murder. The jury also found true the firearm

9

enhancement allegations. 3 Clerk’s Transcript on Appeal (“CT”) 476-77. On

10

September 25, 2015, the trial court sentenced Petitioner to fifty years to life in

11

state prison. 3 CT 530-31.

12

Petitioner appealed his conviction and sentence to the California Court

13

of Appeal. Respondent’s Notice of Lodgment (“Lodgment”) 3. On August 31,

14

2017, the California Court of Appeal affirmed the judgment. Lodgment 5. A

15

Petition for Review was denied on January 16, 2019. Pet. at 13-79, 97

16

(CM/ECF pagination).

17

Petitioner also sought to collaterally attack his conviction by filing a

18

habeas petition in the California Court of Appeal. Lodgment 7. That petition

19

was denied on August 31, 2017. Pet. at 135. Petitioner then filed a habeas

20

petition in the California Supreme Court, which was denied on December 13,

21

2017. Id. at 136; Lodgment 6.

22

III.

23

SUMMARY OF THE EVIDENCE PRESENTED AT TRIAL

24

The underlying facts are taken from the California Court of Appeal’s

25

opinion. Petitioner does not contest the appellate court’s summary of the facts

26

and has not attempted to overcome the presumption of correctness accorded to

27

it. See Tilcock v. Budge, 538 F.3d 1138, 1141 (9th Cir. 2008) (explaining that

28
2

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 3 of 38 Page ID #:2989

1

state court’s factual findings are presumed correct unless petitioner “rebuts that

2

presumption with clear and convincing evidence”).

3

On the evening of September 14, 2013, Maria Huerta

4

arranged to meet her friend [Petitioner] at a Stanton bar where

5

they met weekly to drink and listen to music. [Petitioner], a regular

6

patron of the bar, was friendly and respected by the waitresses and

7

other staff.

8
9

When Huerta arrived, [Petitioner] stood in front of the bar
talking to friends. After about 30 minutes, Huerta and [Petitioner]

10

walked inside. They each consumed six beers over the next two

11

hours. Huerta did not feel intoxicated or “buzzed,” and

12

[Petitioner] did not appear intoxicated.

13

According to Huerta, around the 2:00 a.m. closing time, a

14

waitress who knew [Petitioner] complained to him that Francisco

15

Torres was being rude and disrespectful to her. The waitress,

16

Azucena Mendoza, testified she knew [Petitioner] as a regular of

17

the bar. At some point during the evening, she was walking and

18

holding beer bottles when Torres, who had been sitting at the bar,

19

got up, grabbed her elbow or bicep, and asked her to bring him a

20

beer. When he pulled on her arm, she thought he was going to fall.

21

He also wanted her to sit and have a drink with him. Mendoza

22

declined to get Torres another beer because he was drunk. He

23

insulted her, called her names, and said she was a “whore.” A

24

security guard intervened and Mendoza walked over to

25

[Petitioner’s] table to calm down. She told [Petitioner], who did

26

not appear intoxicated, what happened, pointed Torres out and

27

described how Torres had frightened and insulted her.

28
3

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 4 of 38 Page ID #:2990

1

A few minutes later, Huerta, [Petitioner], Mendoza and

2

another waitress exited the bar, where they spoke for about a

3

minute. At some point, [Petitioner] said he was going to talk to

4

Torres about disrespecting Mendoza. Mendoza, who returned to

5

the bar, may have told him not to do it, and not to get involved.

6

Huerta and [Petitioner] remained outside chatting with others who

7

emerged, and smoking cigarettes.

8
9

Huerta testified when Torres exited the bar, [Petitioner] told
Huerta, “wait for me here. I’m going to go talk to him.”

10

[Petitioner] did not seem agitated. Torres walked out of the bar

11

alone and down the sidewalk in front of an adjacent laundromat.

12

[Petitioner] followed Torres.

13

When [Petitioner] caught up to Torres the men began

14

arguing. Torres shoved [Petitioner] against a glass window and

15

[Petitioner] fell to the ground. [Petitioner] got up after Torres

16

shoved him, and attempted to shove Torres back, but Torres

17

moved out of the way. Torres approached [Petitioner] in a fighting

18

or defensive stance. [Petitioner] then pulled out a gun from his belt

19

area, pointed it at Torres’s face, and fired from about 12 inches

20

away. Torres fell down lying face up. [Petitioner] shot Torres in

21

the chest, put the gun in his waistband, and took off running.

22

Huerta testified she heard only one shot, but told a police

23

officer a day after the incident she thought she heard two shots.

24

She saw [Petitioner’s] hand shake or “pull back” twice. The

25

second time was within a split second of the first; there was no

26

“pause in between seeing his hand shake the first time and the

27

second time.” Huerta described the gun as a “gold, brown”

28

revolver.
4

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 5 of 38 Page ID #:2991

1

Surveillance video showed [Petitioner] and Huerta standing

2

by the door around 1:50 a.m., chatting, smoking, and interacting

3

with various people who emerged from the bar. [Petitioner] moved

4

over to a planter area and continued to smoke and conversed with

5

various men. At about 1:54 a.m., [Petitioner] walked over to the

6

bar door as Torres emerged. [Petitioner] followed Torres as he

7

walked north along the sidewalk abutting the bar and other

8

businesses in the strip mall. The men conversed or argued for

9

about 20 seconds, during which [Petitioner] gestured back toward

10

the bar. Suddenly, Torres punched or shoved [Petitioner], who

11

stumbled backward and out of the frame. Torres approached

12

[Petitioner] with his hands raised in a fighting position. [Petitioner]

13

regained his footing and the men threw a few punches at each

14

other as [Petitioner] danced around. Although the video does not

15

clearly show this part of the incident, [Petitioner] removed his gun

16

and shot Torres, who fell on his back with his head hanging off the

17

curb. [Petitioner] walked quickly away after the shooting, followed

18

by Huerta.

19

The evidence established [Petitioner] fired two rounds, one

20

striking Torres in the left eye, and another striking him in the

21

middle right side of the chest. The injury to the eye had stippling,

22

or unburned gunpowder, around the entry point, suggesting the

23

gun had been fired at close range. Both wounds were fatal, and

24

Torres bled to death. Less than nine seconds had elapsed since

25

Torres punched or shoved [Petitioner]. Investigators found no

26

weapons on or around Torres’s body, and Torres did not have cuts

27

or bruises on his hands. Torres’s blood alcohol content registered

28

at 0.20 percent.
5

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 6 of 38 Page ID #:2992

1

Samuel Carcamo, who knew [Petitioner] from the bar,

2

testified [Petitioner] pulled out the gun, pointed it at Torres’s

3

forehead, and fired. Torres went down. [Petitioner] started to walk

4

away, but then “took a step back, and . . . shot [Torres] again,”

5

this time in the stomach.
Investigators found [Petitioner’s] broken cell phone on the

6
7

ground near Torres’s body. Four days after the shooting, deputies

8

arrested [Petitioner] at a relative’s home. Interviewed at the

9

sheriff’s department, [Petitioner] denied having a gun or shooting

10

Torres, even after investigators showed him surveillance video and

11

told him witnesses identified him as the shooter. He explained he

12

walked toward some people near the video store when he saw

13

people arguing. A man he did not know said “what” to him, and

14

he replied, “what’s up?” The man struck him, causing him to hit

15

the window and fall down, dropping his cell phone. He denied

16

seeing the person previously in the bar. “Somebody fired,” a gun,

17

but he did not know who, and he saw someone “laying there.” He

18

walked to a friend’s home because he did not want problems with

19

the police, as he previously had been deported. [Petitioner]

20

claimed he had six beers before he arrived at the bar, two more at

21

the bar, and was “a little drunk.”

22

Lodgment 5 at 2-5.

23

IV.

24

PETITIONER’S CLAIMS

25
26
27
28

1.

The prosecution failed to prove beyond a reasonable doubt that

Petitioner committed first degree murder. Pet. at 5.
2.

The trial court deprived Petitioner of due process and a fair trial by

instructing the jury with CALCRIM Nos. 3472 and 3474. Pet. at 5-6.
6

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 7 of 38 Page ID #:2993

1
2
3
4
5
6
7
8

3.

The trial court’s failure to issue a unanimity instruction deprived

Petitioner of due process and a fair trial. Pet. at 6.
4.

The trial court’s refusal to allow the jury to test fire the gun

deprived Petitioner of due process and a fair trial. Pet. at 6.
5.

The individual and cumulative effect of the foregoing errors

rendered Petitioner’s trial fundamentally unfair. Pet. at 6.
6.

Trial counsel rendered ineffective assistance by failing to

investigate and present a trauma expert. Pet. at 6.1.

9

V.

10

STANDARD OF REVIEW

11

The Petition is subject to the provisions of the Antiterrorism and

12

Effective Death Penalty Act (the “AEDPA”) under which federal courts may

13

grant habeas relief to a state prisoner “with respect to any claim that was

14

adjudicated on the merits in State court proceedings” only if that adjudication:

15

(1) resulted in a decision that was contrary to, or involved an

16

unreasonable application of, clearly established Federal law, as

17

determined by the Supreme Court of the United States; or

18

(2) resulted in a decision that was based on an unreasonable

19

determination of the facts in light of the evidence presented in the

20

State court proceeding.

21

28 U.S.C. § 2254(d). Under the AEDPA, the “clearly established Federal law”

22

that controls federal habeas review of state court decisions consists of holdings

23

(as opposed to dicta) of Supreme Court decisions “as of the time of the relevant

24

state-court decision.” Williams v. Taylor, 529 U.S. 362, 412 (2000).

25

Although a particular state court decision may be “contrary to” and “an

26

unreasonable application of” controlling Supreme Court law, the two phrases

27

have distinct meanings. Williams, 529 U.S. at 391, 413. A state court decision

28

is “contrary to” clearly established federal law if it either applies a rule that
7

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 8 of 38 Page ID #:2994

1

contradicts the governing Supreme Court law, or reaches a result that differs

2

from the result the Supreme Court reached on “materially indistinguishable”

3

facts. Brown v. Payton, 544 U.S. 133, 141 (2005); Williams, 529 U.S. at 405-

4

06. When a state court decision adjudicating a claim is contrary to controlling

5

Supreme Court law, the reviewing federal habeas court is “unconstrained by

6

[Section] 2254(d)(1).” Williams, 529 U.S. at 406. However, the state court

7

need not cite or even be aware of the controlling Supreme Court cases, “so

8

long as neither the reasoning nor the result of the state-court decision

9

contradicts them.” Early v. Packer, 537 U.S. 3, 8 (2002) (per curiam).

10

State court decisions that are not “contrary to” Supreme Court law may

11

only be set aside on federal habeas review “if they are not merely erroneous,

12

but ‘an unreasonable application’ of clearly established federal law, or based on

13

‘an unreasonable determination of the facts.’” Packer, 537 U.S. at 11 (quoting

14

28 U.S.C. § 2254(d)). A state court decision that correctly identified the

15

governing legal rule may be rejected if it unreasonably applied the rule to the

16

facts of a particular case. See Williams, 529 U.S. at 406-10, 413; Woodford v.

17

Visciotti, 537 U.S. 19, 24-27 (2002) (per curiam). However, to obtain federal

18

habeas relief for such an “unreasonable application,” a petitioner must show

19

that the state court’s application of Supreme Court law was “objectively

20

unreasonable.” Visciotti, 537 U.S. at 24-27. An “unreasonable application” is

21

different from an erroneous or incorrect one. See Williams, 529 U.S. at 409-11;

22

see also Visciotti, 537 U.S. at 25; Bell v. Cone, 535 U.S. 685, 694 (2002). “To

23

obtain habeas corpus relief from a federal court, a state prisoner must show

24

that the challenged state-court ruling rested on ‘an error well understood and

25

comprehended in existing law beyond any possibility for fairminded

26

disagreement.’” Metrish v. Lancaster, 569 U.S. 351, 358 (2013) (quoting

27

Harrington v. Richter, 562 U.S. 86, 103 (2011)). Moreover, as the Supreme

28

Court held in Cullen v. Pinholster, 563 U.S. 170, 181, 185 n.7 (2011), review
8

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 9 of 38 Page ID #:2995

1

of state court decisions under § 2254(d) is limited to the record that was before

2

the state court that adjudicated the claim on the merits.

3

Here, Petitioner raised claims similar to those raised in Grounds One

4

through Five in the California Court of Appeal on direct appeal. The court of

5

appeal rejected these claims in a reasoned decision on August 31, 2017.

6

Lodgment 5. Thereafter, the California Supreme Court denied Petitioner’s

7

Petition for Review without comment or citation to authority. Pet. at 97. In such

8

circumstances, the Court will “look through” the unexplained California

9

Supreme Court decision to the last reasoned decision as the basis for the state

10

court’s judgment, in this case, the court of appeal’s decision. See Wilson v.

11

Sellers, 584 U.S. –, 138 S. Ct. 1188, 1192 (2018) (“[T]he federal court should

12

‘look through’ the unexplained decision to the last related state-court decision

13

that does provide a relevant rationale. It should then presume that the

14

unexplained decision adopted the same reasoning.”); Ylst v. Nunnemaker, 501

15

U.S. 797, 803-04 (1991).

16

As to the remaining claim, Petitioner raised this ineffective assistance of

17

counsel claim in his state habeas petitions. Both the California Court of Appeal

18

and the California Supreme Court denied his habeas petitions without comment

19

or citation to authority. See Pet. at 135-36. The Court presumes the summary

20

denials were merits determinations “in the absence of any indication or state-law

21

procedural principles to the contrary.” Richter, 562 U.S. at 99. The parties have

22

not presented any evidence rebutting this presumption. As such, the AEDPA

23

standard of review applies, id. at 98, and the Court must conduct an

24

“independent review of the record and ascertain whether the state court’s

25

decision was objectively unreasonable.” Walker v. Martel, 709 F.3d 925, 939

26

(9th Cir. 2013) (internal quotation marks and citation omitted); see also Murray

27

v. Schriro, 745 F.3d 984, 996 (9th Cir. 2014). “[A] habeas court must determine

28

what arguments or theories . . . could have supporte[d] the state court’s decision;
9

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 10 of 38 Page ID #:2996

1

and then it must ask whether it is possible fairminded jurists could disagree that

2

those arguments or theories are inconsistent with the holding in a prior decision

3

of [the Supreme] Court.” Pinholster, 563 U.S. at 188 (last alteration added)

4

(quoting Richter, 562 U.S. at 102). In reviewing the state court decisions, the

5

Court has independently reviewed the relevant portions of the record. Nasby v.

6

McDaniel, 853 F.3d 1049, 1052-53 (9th Cir. 2017).

7

VI.

8

DISCUSSION

9

A.

Petitioner is Not Entitled to Habeas Relief on His Insufficiency of the

10

Evidence Claim

11

In Ground One, Petitioner contends that the prosecutor failed to prove

12

beyond a reasonable doubt that he committed first degree murder. Pet. at 5. He

13

maintains that he never deliberately and with premeditation killed Francisco

14

Torres (“Torres”). Petitioner asserts the killing resulted from a spontaneous

15

fistfight; it resulted “from imperfect self-defense, or a sudden quarrel, or heat of

16

passion that Torres instigated when he hit, shoved or punched” Petitioner. Pet.

17

Mem. at 11, 14-16. While Petitioner concedes he had a gun, he “likely carried

18

the gun for self-protection in a high crime area.” Id. at 14.

19

1.

20

The California Court of Appeal rejected Petitioner’s insufficiency of the

The California Court of Appeal Decision

21

evidence claim on direct appeal, concluding that “the evidence as a whole

22

support[ed] the jury’s verdict.” Lodgment 5 at 5. The court of appeal explained

23

(id. at 8-9):

24

Here, sufficient evidence supports [Petitioner’s] first degree

25

murder conviction. The jury reasonably could conclude

26

[Petitioner’s] motive in killing Torres was retribution for his earlier

27

misbehavior toward the waitress, who was [Petitioner’s] friend.

28

The record also supports an inference [Petitioner] acted to uphold
10

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 11 of 38 Page ID #:2997

1

his reputation in the bar as a respected person who could solve

2

problems and vindicate slights. When Torres struck [Petitioner]

3

and knocked him to the ground outside the bar, the jury

4

reasonably could conclude [Petitioner] was motivated to shoot

5

Torres to address or remedy the damage to his reputation if he

6

were to lose this fight. Consequently, he shot Torres in the head

7

and as the prosecutor argued, “turned back to finish the job” by

8

shooting Torres in the chest to avenge Torres’s disrespectful and

9

rude conduct to him and to those in the bar.

10

The record also contains planning evidence. [Petitioner]

11

waited outside the bar with a loaded revolver concealed in his

12

waistband and followed Torres to confront him about his conduct

13

inside the bar. He would have known this might provoke an

14

argument with the intoxicated Torres, and lead to a violent

15

confrontation. But he prepared himself to respond with deadly

16

force. As the prosecutor argued, [Petitioner] “chased [Torres]

17

down knowing he had a revolver in his waistband.” The jury could

18

conclude [Petitioner] planned a murder by concealing the gun and

19

intending to use it if he was losing the fight.

20

The evidence also showed the manner of the killing was

21

particular and exacting, which supports a finding [Petitioner] had

22

planned the killing. As noted, [Petitioner] fired once into Torres’s

23

left eye, and then into the victim’s chest as he lay on the ground.

24

The jury reasonably could conclude [Petitioner] carried out the

25

killing coolly and steadily, with cold, calculated judgment akin to

26

an execution-style murder. (See People v. Hawkins (1995) 10

27

Cal.4th 920, 956-957 [evidence showed victim kneeling or

28

crouching when the defendant fired two shots to the victim’s head
11

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 12 of 38 Page ID #:2998

1

from a distance of three to 12 inches], overruled on other grounds

2

in People v. Lasko (2000) 23 Cal.th 101, 110.) The exacting nature

3

of the killing supports the jury’s finding [Petitioner] considered the

4

consequences of his actions either before he confronted Torres or

5

during the argument. We therefore reject [Petitioner’s] challenge

6

to the sufficiency of the evidence for first degree murder.

7

2.

8

The California standard in reviewing a sufficiency of the evidence claim

9

Applicable Legal Authority and Analysis

is identical to the federal standard set forth in Jackson v. Virginia, 443 U.S. 307

10

(1979). See People v. Johnson, 26 Cal. 3d 557, 576 (1980). The question is

11

“whether, after viewing the evidence in the light most favorable to the

12

prosecution, any rational trier of fact could have found the essential elements

13

of the crime beyond a reasonable doubt.” Jackson, 443 U.S. at 319; see also

14

Parker v. Matthews, 567 U.S. 37, 43 (2012) (per curiam). The reviewing court

15

“must respect the province of the jury to determine the credibility of witnesses,

16

resolve evidentiary conflicts, and draw reasonable inferences from proven facts

17

by assuming that the jury resolved all conflicts in a manner that supports the

18

verdict.” Walters v. Maass, 45 F.3d 1355, 1358 (9th Cir. 1995); see also

19

Cavazos v. Smith, 565 U.S. 1, 7 (2011) (per curiam) (Jackson “instructs that a

20

reviewing court ‘faced with a record of historical facts that support conflicting

21

inferences must presume – even if it does not affirmatively appear in the record

22

– that the trier of fact resolved any such conflicts in favor of the prosecution,

23

and must defer to that resolution.’” (quoting Jackson, 443 U.S. at 326)).

24

Finally, “the standard must be applied with explicit reference to the substantive

25

elements of the criminal offense as defined by state law.” Jackson, 443 U.S. at

26

324 n.16; Chein v. Shumsky, 373 F.3d 978, 983 (9th Cir. 2004) (en banc).

27
28

Under California law, first degree murder is the unlawful killing of
another human being with malice aforethought, premeditation, and
12

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 13 of 38 Page ID #:2999

1

deliberation. See People v. Hernandez, 183 Cal. App. 4th 1327, 1332 (2010)

2

(citing People v. Chun, 45 Cal. 4th 1172, 1181 (2009)). “Malice may be express

3

(intent to kill) or implied (intentional commission of life-threatening act with

4

conscious disregard for life).” Hernandez, 183 Cal. App. 4th at 1332. Murder

5

is deliberate and premeditated only if the perpetrator acted “as a result of

6

careful thought and weighing of considerations; as a Deliberate judgment or

7

plan; carried on coolly and steadily, [especially] according to a Preconceived

8

design.” See People v. Anderson, 70 Cal. 2d 15, 26 (1968) (alteration in

9

original) (citation omitted). “In this context, ‘“premeditated” means

10

“considered beforehand,” and “deliberate” means “formed or arrived at or

11

determined upon as a result of careful thought and weighing of considerations

12

for and against the proposed course of action.”’” People v. Jennings, 50 Cal.

13

4th 616, 645 (2010) (citation omitted). “The process of premeditation and

14

deliberation does not require any extended period of time” and can take place

15

quickly. See People v. Koontz, 27 Cal. 4th 1041, 1080 (2003); People v. Perez,

16

2 Cal. 4th 1117, 1127 (1992). California has identified three categories of

17

evidence relevant in determining the sufficiency of the evidence to support a

18

finding of deliberation and premeditation: (1) the defendant’s planning activity

19

prior to the homicide; (2) the motive to kill, as gleaned from the prior

20

relationship or conduct with the victim; and (3) the manner of the killing, from

21

which it might be inferred the defendant had a preconceived design to kill. See

22

Anderson, 70 Cal. 2d at 26-27; see also People v. Mendoza, 52 Cal. 4th 1056,

23

1069 (2011); People v. Wharton, 53 Cal. 3d 522, 546-47 (1991) (as modified).

24

Viewing the evidence in the light most favorable to the prosecution, the

25

Court concludes that a rational trier of fact could have found beyond a

26

reasonable doubt that Petitioner committed first degree murder. Each of the

27

Anderson factors supports the jury’s verdict. First, with respect to planning

28

activity, the evidence showed that Petitioner waited outside the bar for Torres
13

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 14 of 38 Page ID #:3000

1

to confront him regarding his disrespect for women. 2 Reporter’s Transcript on

2

Appeal (“RT”) 225-26, 229-30. As the court of appeal noted, Petitioner “would

3

have known this might provoke an argument with the intoxicated Torres, and

4

lead to a violent confrontation.” Lodgment 5 at 9; 6 RT 1006, 1009. He

5

nevertheless approached Torres armed with a concealed loaded gun. Based on

6

this evidence, the appellate court reasonably concluded that the jury could

7

conclude that Petitioner “planned a murder by concealing the gun and

8

intending to use it if he was losing the fight.” Lodgment 5 at 9.

9

The evidence also showed motive. Petitioner was a regular at the Oasis

10

Bar, where he was well-known and respected. 2 RT 187, 197-99, 300, 317.

11

After Torres disrespected one of the waitresses, Azucena Mendoza

12

(“Mendoza”), who Petitioner was friendly with, by calling her names and

13

grabbing her arm, Mendoza reported the incident to Petitioner. 2 RT 222-26,

14

303-04; 3 RT 398, 400-01, 406, 429. Mendoza testified that she described to

15

Petitioner how Torres insulted her and that she was frightened. 3 RT 406-08.

16

Mendoza pointed Torres out and Petitioner told Mendoza that he would talk

17

to Torres outside about why he was disrespecting women. 2 RT 225; 3 RT 408-

18

10. From this evidence, the jury could conclude that Petitioner’s motive in

19

killing Torres was retribution for his earlier behavior towards Mendoza, and to

20

uphold his reputation in the bar as a respected patron who could resolve

21

problems. The jury also could infer that Petitioner was further motivated to

22

protect his reputation and avenge Torres’s disrespectful conduct after Torres

23

responded to Petitioner’s confrontation outside the bar by pushing him,

24

resulting in Petitioner falling on the ground. See 2 RT 237-40.

25

Finally, the manner of the killing – shooting Torres once in the face, and

26

then shooting him again in the chest after he was already on the ground –

27

further supports a finding of deliberation and premeditation. See 2 RT 240,

28

358-60, 364-65; 3 RT 520; 5 RT 868; 6 RT 967-68. The jury could have
14

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 15 of 38 Page ID #:3001

1

reasonably concluded that the killing was “akin to an execution-style murder,”

2

carried out with calculated judgment. Lodgment 5 at 9.
Petitioner’s explanation for the shooting does not alter this conclusion.

3
4

As noted, a reviewing court “must respect the province of the jury to determine

5

the credibility of witnesses, resolve evidentiary conflicts, and draw reasonable

6

inferences from proven facts by assuming that the jury resolved all conflicts in

7

a manner that supports the verdict.” Walters, 45 F.3d at 1358; see also Smith,

8

565 U.S. at 7.
Based on the foregoing, the state court’s rejection of this claim was

9
10

neither contrary to, nor involved an unreasonable application of, the Jackson

11

standard. Petitioner is not entitled to habeas relief on his insufficiency of the

12

evidence claim.

13

B.

Petitioner is Not Entitled to Habeas Relief on His Instructional Error

14

Claims

15

Petitioner asserts multiple claims of instructional error. In Ground Two,

16

Petitioner contends that the trial court violated his rights to due process and a

17

fair trial by instructing the jury with CALCRIM Nos. 3472 and 3474. Pet. at 5.

18

In Ground Three, Petitioner contends that the failure to issue a unanimity

19

instruction deprived him of due process and a fair trial. Id. at 6.

20

Challenges to state jury instructions are generally questions of state law

21

and thus, are not cognizable on federal habeas review. See Estelle v. McGuire,

22

502 U.S. 62, 71-72 (1991). To merit habeas relief based on an instructional

23

error, a petitioner must show that “the ailing instruction by itself so infected

24

the entire trial that the resulting conviction violates due process.” See id. at 72

25

(citation omitted); see also Waddington v. Sarausad, 555 U.S. 179, 191 (2009);

26

Henderson v. Kibbe, 431 U.S. 145, 154 (1977). Instructional errors must be

27

considered in the context of the instructions as a whole and the trial record.

28

McGuire, 502 U.S. at 72; Cupp v. Naughten, 414 U.S. 141, 146-47 (1973).
15

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 16 of 38 Page ID #:3002

1

“Where the alleged error is the failure to give an instruction the burden on

2

petitioner is ‘especially heavy,’” Hendricks v. Vasquez, 974 F.2d 1099, 1106

3

(9th Cir. 1992) (as amended) (quoting Kibbe, 431 U.S. at 155), because “[a]n

4

omission, or an incomplete instruction, is less likely to be prejudicial than a

5

misstatement of the law.” Kibbe, 431 U.S. at 155. Habeas relief is warranted

6

only where the error had “substantial and injurious effect or influence in

7

determining the jury’s verdict.” Hedgpeth v. Pulido, 555 U.S. 57, 58, 61-62

8

(2008) (per curiam) (quoting Brecht v. Abrahamson, 507 U.S. 619, 623 (1993));

9

see also Clark v. Brown, 450 F.3d 898, 905 (9th Cir. 2006) (as amended).

10

1.

CALCRIM Nos. 3472 and 3474

11

Over the defense’s objection, the trial court instructed the jury in

12

accordance with CALCRIM Nos. 3472 and 3474. The trial court instructed

13

that “[a] person does not have the right to self-defense if he or she provokes a

14

fight or quarrel with the intent to create an excuse to use force.” 2 CT 457

15

(CALCRIM No. 3472). The trial court further instructed, “[t]he right to use

16

force in self-defense continues only as long as the danger exists or reasonably

17

appears to exist. When the attacker no longer appears capable of inflicting any

18

injury, then the right to use force ends.” 2 CT 458 (CALCRIM No. 3474).

19

Petitioner maintains that the evidence failed to support either

20

instruction. As to CALCRIM No. 3472, Petitioner contends that he never

21

provoked a fight or quarrel with the intent to create an excuse to use force. Pet.

22

Mem. at 17. According to Petitioner, CALCRIM No. 3472 only applies to

23

“someone who starts a physical attack and not someone who starts a verbal

24

argument.” Id. at 19. Petitioner argues that the evidence showed that he went

25

to talk to Torres, and Torres responded by physically attacking him, thereby

26

putting Petitioner “in reasonable fear of further unlawful injury” and giving

27

Petitioner “the legal right to strike back in self-defense.” Id. at 22. Petitioner

28

argues that the prosecutor compounded the trial court’s error by using
16

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 17 of 38 Page ID #:3003

1

CALCRIM No. 3472 to argue Petitioner could not claim self-defense because

2

he instigated the fistfight. Id. at 23.

3

As to CALCRIM No. 3474, Petitioner argues that the evidence failed to

4

justify this instruction because Torres may not have been incapacitated after

5

the first shot, and therefore, the danger from Torres never dissipated. Pet.

6

Mem. at 17, 25, 27-29.

7
8
9
10
11

i.

The California Court of Appeal Decision

The California Court of Appeal rejected this instructional error claim on
direct appeal, concluding that the trial court properly instructed the jury.
Lodgment 5 at 9. The appellate court explained (id. at 10-11):
We discern no error. The jury instructions at issue were

12

correct statements of the law, and substantial evidence supported

13

giving them. (People v. Breverman (1998) 19 Cal.4th 142, 154 [the

14

trial court must instruct sua sponte on the general principles of law

15

relevant to the issues raised by the evidence].) [Petitioner] followed

16

Torres with a concealed loaded revolver and the evidence

17

supported the inference he did so to provoke an argument with

18

him. If the jury found he contrived a verbal argument (a “quarrel”)

19

with the intent to provoke Torres to use force, so that he could then

20

shoot him, the jury properly could find he did not have the right to

21

self-defense. (People v. Hecker (1895) 109 Cal. 451, 462 [self-

22

defense is not available where the defendant seeks a quarrel “with

23

the design to force a deadly issue and thus, through his fraud,

24

contrivance, or fault, to create a real or apparent necessity for

25

killing”]; cf. People v. Ramirez (2015) 233 Cal.App.4th 940, 943

26

(Ramirez) [person who contrives to start a fistfight or provoke a

27

nondeadly quarrel does not forfeit his right to live and may defend

28

himself when his opponent escalates the conflict to deadly force].)
17

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 18 of 38 Page ID #:3004

1

Here, unlike in Ramirez, where the defendant testified he

2

saw the victim draw a gun, no evidence suggested Torres resorted

3

to lethal force. Consequently, the trial court had no sua sponte

4

duty to modify the instruction accordingly. (Bench Note to

5

CALCRIM No. 3472 (2017 ed.) p. 987 [“This instruction may

6

require modification in the rare case in which a defendant intends

7

to provoke only non-deadly confrontation and the victim responds

8

with deadly force”], [emphasis] added.) When the victim does not

9

respond, or appear to respond, with unjustified deadly force,

10

CALCRIM No. 3472 accurately states the law and requires no

11

modification. (People v. Eulian (2016) 247 Cal.App.4th 1324,

12

1334.) If [Petitioner] desired further clarifying or pinpoint

13

instructions, it was his duty to request them. (People v. Hart (1999)

14

20 Cal.4th 546, 622.)

15

Assuming the jury found [Petitioner] initially acted in self-

16

defense, CALCRIM No. 3474 allowed the jury to determine whether

17

[Petitioner] could continue to defend himself because Torres still

18

posed a deadly threat to him. As the trial court noted, the jury was

19

entitled to determine whether Torres was still alive and “disabled”

20

after the first shot, and whether any danger from Torres no longer

21

existed. Finally, the instructions did not negate a self-defense theory.

22

The court instructed on justifiable homicide: self-defense

23

(CALCRIM No. 505), provocation: effect on degree of murder

24

(CALCRIM No. 522); voluntary manslaughter: heat of passion—

25

lesser included offense (CALCRIM No. 570), and voluntary

26

manslaughter: imperfect self-defense—lesser included offense

27

(CALCRIM No. 571). Nothing in CALCRIM Nos. 3472 and 3474

28

precluded the jury from finding [Petitioner] had an honest but
18

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 19 of 38 Page ID #:3005

1

unreasonable belief in the need for self-defense. Nor did the

2

instructions prevent the jury from finding [Petitioner] acted with

3

adequate provocation or returning a voluntary manslaughter verdict.

4
5

ii.

Analysis

Here, as explained, Petitioner contends that the evidence did not support

6

the use of CALCRIM Nos. 3472 and 3474. However, “[g]iving an instruction

7

which is not supported by the evidence is not a due process violation.” Steele

8

v. Holland, 2017 WL 2021364, at *8 (N.D. Cal. May 12, 2017) (alteration in

9

original) (citation omitted) (rejecting argument that instructing jury with

10

CALCRIM No. 3472 despite lack of factual support impaired petitioner’s right

11

to present a complete defense); see also Foster v. Sexton, 2019 WL 3766555, at

12

*9 (C.D. Cal. Aug. 9, 2019) (finding factual challenge to CALCRIM No. 3472

13

did not state a cognizable federal claim); Martinez v. Hollond, 2015 WL

14

10044281, at *18 (C.D. Cal. Mar. 30, 3015) (rejecting claim that CALCRIM

15

No. 3472 violated the petitioner’s constitutional rights to present a complete

16

defense, to due process, and to a fair trial because the instruction was not

17

supported by the evidence), report and recommendation accepted by 2016 WL

18

552679 (C.D. Cal. Feb. 9, 2016). No clearly established Supreme Court

19

precedent “constitutionally prohibits a trial court from instructing a jury with a

20

factually inapplicable but accurate statement of state law.” Fernandez v.

21

Montgomery, 182 F. Supp. 3d 991, 1011 (N.D. Cal. 2016); see also Foster,

22

2019 WL 3766555, at *9; Prock v. Sherman, 2017 WL 4480738, at *13 (C.D.

23

Cal. Aug. 21, 2017), report and recommendation accepted by 2017 WL

24

4480083 (C.D. Cal. Oct. 5, 2017). Rather, the Supreme Court has found that

25

due process is not violated when jurors are instructed on a legal theory that

26

lacks evidentiary support because “jurors are well equipped to analyze the

27

evidence.” Griffin v. United States, 502 U.S. 46, 59-60 (1991). Absent clearly

28

established federal law, the Court cannot conclude that the state court’s
19

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 20 of 38 Page ID #:3006

1

rejection of Petitioner’s claim was either contrary to, or involved an

2

unreasonable application of, clearly established federal law, as determined by

3

the United States Supreme Court. See Knowles v. Mirzayance, 556 U.S. 111,

4

122 (2009) (holding “it is not ‘an unreasonable application of’ ‘clearly

5

established Federal law’ for a state court to decline to apply a specific legal rule

6

that has not been squarely established by this Court”); Brewer v. Hall, 378

7

F.3d 952, 955 (9th Cir. 2004) (“If no Supreme Court precedent creates clearly

8

established federal law relating to the legal issue the habeas petitioner raised in

9

state court, the state court’s decision cannot be contrary to or an unreasonable

10
11

application of clearly established federal law.”).
Additionally, the Court concurs with the California Court of Appeal that

12

substantial evidence supported giving these instructions. As previously noted,

13

the evidence showed that Petitioner waited outside for Torres with a concealed

14

loaded gun to confront him regarding his treatment of Mendoza. They argued,

15

Torres pushed Petitioner, and he fell to the ground. Petitioner got up, tried to

16

push Torres back, then pulled out a gun, and shot Torres. See 2 RT 225, 229-

17

30, 236-42, 312, 355-60. As the court of appeal concluded, this evidence

18

supported the inference that Petitioner provoked a verbal argument, or

19

“quarrel,” with the intent to provoke Torres to use force, so that he could then

20

shoot him. The evidence further showed that Torres did not have any weapons

21

(see 2 RT 295; 6 RT 9005-06), and Petitioner shot him a second time after he

22

was already on the ground. 2 RT 360, 364-65; 6 RT 961. After Petitioner shot

23

Torres in the face, causing Torres to fall to the ground, Petitioner started

24

walking away, but then stepped back and shot Torres a second time while

25

Torres was still on the ground. 2 RT 359-60. Petitioner’s actions provided

26

sufficient evidence to warrant instructing the jury with CALCRIM Nos. 3472

27

and 3474. To the extent Petitioner contends that the appellate court erred in

28

concluding that a “verbal confrontation” may qualify a person as the initial
20

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 21 of 38 Page ID #:3007

1

aggressor under CALCRIM No. 3472, the state court’s finding on this issue is

2

binding on federal habeas review. See Bradshaw v. Richey, 546 U.S. 74, 76

3

(2005) (per curiam) (“We have repeatedly held that a state court’s

4

interpretation of state law, including one announced on direct appeal of the

5

challenged conviction, binds a federal court sitting in habeas corpus.”);

6

Mullaney v. Wilbur, 421 U.S. 684, 691 & n. 11 (1975) (“state courts are the

7

ultimate expositors of state law,” and a federal habeas court is bound by the

8

state’s interpretation unless “it appears to be an ‘obvious subterfuge to evade

9

consideration of a federal issue’” (citation omitted)).

10

Finally, CALCRIM Nos. 3472 and 3474 must be viewed in the context

11

of the instructions as a whole. McGuire, 502 U.S. at 72. As the court of appeal

12

correctly concluded, the instructions at issue did not negate a self-defense

13

theory, or preclude the jury from finding Petitioner acted with adequate

14

provocation or was guilty of a lesser offense. As the appellate court explained,

15

the trial court instructed the jury regarding self-defense, provocation, and

16

voluntary manslaughter. 2 CT 439-40, 445-49. Consistent with these

17

instructions, the prosecutor acknowledged the availability of self-defense,

18

provocation, and lesser included offenses, but argued that the evidence

19

supported finding Petitioner guilty of first degree murder. See 7 RT 1082-83,

20

1109, 1113-1114, 1121-30.

21

Accordingly, the state court’s rejection of this claim was neither contrary

22

to, nor involved an unreasonable application of, clearly established federal law,

23

as determined by the United States Supreme Court. Nor was it based on an

24

unreasonable determination of the facts in light of the evidence presented.

25

Petitioner is not entitled to habeas relief on this instructional error claim.

26

2.

27

Petitioner also contends that the trial court’s failure to issue a unanimity

28

Unanimity Instruction

instruction deprived him of due process and a fair trial. Pet. at 6. Petitioner
21

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 22 of 38 Page ID #:3008

1

maintains that although the coroner testified that the two gunshots were

2

almost simultaneous, the prosecutor argued that the single murder count could

3

have been committed different ways. According to Petitioner, the

4

prosecution’s “two shot” theory “allowed the jury to find that because

5

[Petitioner] fatally shot Torres in the eye and then shot Torres once in the

6

chest, [Petitioner] may not have premeditated Torres’ murder when he fired

7

the first shot, but definitely committed first degree premeditated and deliberate

8

murder when he fired the second shot.” Pet. Mem. at 32-33. Petitioner argues

9

that the trial court “should have issued a unanimity instruction to insure the

10
11
12
13
14

jury unanimously decided which shot killed Torres.” Id. at 33.
i.

The California Court of Appeal Decision

The California Court of Appeal rejected Petitioner’s corresponding claim
on direct appeal, reasoning as follows (Lodgment 5 at 12-13):
“Where the accusatory pleading charges a single criminal

15

offense and the evidence shows more than one such unlawful act

16

[which may have constituted the offense] was committed, [then]

17

either the prosecution must elect the specific act relied upon to

18

prove the charge or the jury must be instructed . . . that it must

19

unanimously agree beyond a reasonable doubt that defendant

20

committed the same specific criminal act.” (People v. Martinez

21

(1988) 197 Cal.App.3d 767, 772; People v. Diedrich (1982) 31

22

Cal.3d 263, 281 [purpose of unanimity instruction is to require

23

agreement among the jurors as to the act or acts which would

24

support a conviction for the charged offense]; People v. Deletto

25

(1983) 147 Cal.App.3d 458, 471-472 [possibility of disagreement

26

exists where the defendant is accused of a number of unrelated

27

incidents leaving the jurors free to believe different parts of the

28

testimony and yet convict the defendant].) The trial court must
22

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 23 of 38 Page ID #:3009

1

give a unanimity instruction sua sponte where the facts require it.

2

(People v. Davis (2005) 36 Cal.4th 510, 561.)

3

The “‘continuous conduct exception’” is a limited exception

4

to the unanimity requirement. “[N]o unanimity instruction is

5

required when the acts alleged are so closely connected as to form

6

part of one continuing transaction or course of criminal conduct.

7

‘The “continuous conduct” rule applies when the defendant offers

8

essentially the same defense to each of the acts, and there is no

9

reasonable basis for the jury to distinguish between them.’

10

[Citations.]” (People v. Dieguez (2001) 89 Cal.App.4th 266, 275.)

11

In other words, where there is no evidence from which the jury

12

could have found the defendant guilty of one act, but not the

13

other, such as where different defenses are asserted as to each,

14

there is no danger that different jurors would find the defendant

15

guilty of different acts. (People v. Riel (2000) 22 Cal.4th 1153,

16

1199 (Riel).)

17

Here, there is no basis to distinguish between [Petitioner’s]

18

two gunshots. [Petitioner’s] acts in firing two successive shots were

19

substantially identical in nature. Under these circumstances, there

20

simply is no danger that different jurors would find [Petitioner]

21

guilty of different acts. “‘[W]here the acts were substantially

22

identical in nature, so that any juror believing one act took place

23

would inexorably believe all acts took place, the instruction is not

24

necessary to the jury’s understanding of the case.’” (People v.

25

Beardslee (1991) 53 Cal.3d 68, 93.)

26

The jury rejected the only defense (self-defense) offered. (See

27

People v. Stankewitz (1990) 51 Cal.3d 72, 100 [unanimity

28

instruction not required where defendant offers essentially same
23

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 24 of 38 Page ID #:3010

1

defense to each act and no reasonable basis for jury to distinguish

2

between them].) Regardless, any conceivable error was harmless.

3

(Chapman v. California (1967) 386 U.S. 18, 24; People v. Watson

4

(1956) 46 Cal.2d 818, 836.) The jury unanimously agreed

5

[Petitioner] intended to kill Torres and acted with premeditation

6

and deliberation. There was no reasonable possibility a juror

7

would have found [Petitioner] did not premeditate and deliberate

8

by firing the first shot but that he did so during the second shot.

9
10

ii.

Analysis

The state court’s rejection of this claim was neither contrary to, nor

11

involved an unreasonable application of, clearly established federal law, as

12

determined by the United States Supreme Court. Nor was it based on an

13

unreasonable determination of the facts in light of the evidence presented.

14

First, there is no clearly established Supreme Court law recognizing a right to a

15

unanimous jury verdict in state proceedings. See Richardson v. United States,

16

526 U.S. 813, 817 (1999) (federal jury does not need to unanimously decide

17

which set of underlying facts make up a particular element of a crime); Schad

18

v. Arizona, 501 U.S. 624, 632 (1991) (plurality opinion) (“there is no general

19

requirement that the jury reach agreement on the preliminary factual issues

20

which underlie the verdict” (citation omitted)); McKoy v. North Carolina, 494

21

U.S. 433, 449 (1990) (Blackmun, J., concurring) (“[D]ifferent jurors may be

22

persuaded by different pieces of evidence, even when they agree upon the

23

bottom line. Plainly there is no general requirement that the jury reach

24

agreement on the preliminary factual issues which underlie the verdict”

25

(internal footnote omitted)); Johnson v. Louisiana, 406 U.S. 356, 359 (1972)

26

(recognizing that “[i]n criminal cases due process of law is not denied by a

27

state law . . . which dispenses with the necessity of a jury of twelve, or

28

unanimity in the verdict” (alterations in original) (citation omitted); Sullivan v.
24

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 25 of 38 Page ID #:3011

1

Borg, 1 F.3d 926, 927 (9th Cir. 1993) (holding that Schad was dispositive of

2

petitioner’s claim that a jury instruction allowing the jury to convict him of

3

first degree murder without unanimity as to whether he committed felony

4

murder or premeditated murder violated his rights to due process and equal

5

protection). To the contrary, “a state criminal defendant, at least in noncapital

6

cases, has no federal right to a unanimous jury verdict.” Schad, 501 U.S. at

7

634 n.5.

8

In his Traverse, Petitioner notes that the Supreme Court heard oral

9

arguments in Ramos v. Louisiana (Case No. 18-5924) on October 7, 2019 and

10

“will decide if the 14th Amendment fully incorporates the Sixth Amendment

11

guarantee of a unanimous verdict. Ramos’ case hinges on whether the Sixth

12

Amendment’s guarantee of a unanimous jury applies to the states.” Trav. at

13

16-17. The petitioner in Ramos was tried by a twelve-member jury, ten of

14

whom found him guilty of second degree murder. Under the Louisiana Code

15

of Criminal Procedure only ten jurors must concur to render a verdict. This

16

case is distinguishable from the present case, where the question is not whether

17

all jurors agreed that Petitioner was guilty of first degree murder. In any event,

18

as explained, federal habeas courts must evaluate the state court’s decision on

19

the basis of the law that was clearly established at “the time of the state-court

20

decision.” Williams, 529 U.S. at 412; see also Greene v. Fisher, 565 U.S. 34,

21

38 (2011). Thus, whether the ultimate decision in Ramos may support

22

Petitioner’s claim, this was not the law at the time of the state court’s decision

23

and as such, would not apply here. See Bennet v. Terhune, 265 F. App’x 490,

24

492 (9th Cir. 2008); Winter v. Scribner, 2012 WL 1189482, at *28 (E.D. Cal.

25

Apr. 9, 2012), affirmed by 577 F. App’x 651 (9th Cir. 2014).

26

Additionally, to the extent Petitioner contends that a unanimity

27

instruction was required by the California Constitution (Trav. at 17), this claim

28

is not cognizable on federal habeas review. See Wilson v. Corcoran, 562 U.S.
25

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 26 of 38 Page ID #:3012

1

1, 5 (2010) (per curiam) (“it is only noncompliance with federal law that

2

renders a State’s criminal judgment susceptible to collateral attack in the

3

federal courts”); McGuire, 502 U.S. at 71-72. Federal habeas relief is not

4

available for errors of state law. See 28 U.S.C. § 2254(a); McGuire, 502 U.S. at

5

67-68. “In conducting habeas review, a federal court is limited to deciding

6

whether a conviction violated the Constitution, laws, or treaties of the United

7

States.” McGuire, 502 U.S. at 68; Smith v. Phillips, 455 U.S. 209, 221 (1982).

8

Accordingly, Petitioner’s claim alleging instructional error based on state law

9

does not present a federal question. See McGuire, 502 U.S. at 71-72 (“the fact

10

that the instruction was allegedly incorrect under state law is not a basis for

11

habeas relief”); Miller v. Rickley, 2016 WL 7480265, at *3 (C.D. Cal. Nov. 22,

12

2016) (finding claim based on the California Constitution not cognizable),

13

report and recommendation accepted by 2016 WL 7485672 (C.D. Cal. Dec.

14

29, 2016).

15

Moreover, the court of appeal concluded that the instruction was not

16

required under state law under the circumstances presented in this case.

17

Lodgment 5 at 13. This Court is bound by the California Court of Appeal’s

18

conclusion that the instruction was not required under state law, a finding that

19

was not arbitrary or obvious subterfuge. See Bradshaw, 546 U.S. at 76;

20

Mullaney, 421 U.S. at 691 & n.11.

21

Finally, even if the trial court erred in failing to give a unanimity

22

instruction, Petitioner has failed to show that the error had “substantial and

23

injurious effect or influence in determining the jury’s verdict.” See Brecht, 507

24

U.S. at 637. The forensic pathologist testified that the gunshots occurred

25

almost simultaneously and both were fatal. 6 RT 987-88, 993. As the appellate

26

court found, “[t]here was no reasonable possibility a juror would have found

27

[Petitioner] did not premeditate and deliberate by firing the first shot but that

28

he did so during the second shot.” Lodgment 5 at 13. The jury was instructed
26

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 27 of 38 Page ID #:3013

1

regarding the reasonable doubt standard, the prosecution’s burden of proof,

2

and that the jury must agree on the verdict. 2 CT 402, 415, 444, 451. The jury

3

is presumed to have followed the instructions given, Weeks v. Angelone, 528

4

U.S. 225, 234 (2000), a presumption that Petitioner has not rebutted.
Accordingly, Petitioner is not entitled to habeas relief on this claim.

5
6

C.

Petitioner is Not Entitled to Habeas Relief on His Claim that the

7

Jurors Should Have Been Permitted to Test Fire the Gun

8

During deliberations, the jury asked, “Can we dry-fire the pistol to feel

9

actual trigger pressure?” 1 CT 68; 2 CT 467; 7 RT 1204. The trial court

10

consulted with the parties, and Petitioner objected that the jury should not be

11

permitted to test-fire the gun or hold it, arguing that it constituted an improper

12

experiment. 7 RT 1204, 1207. The trial court concluded that it would allow the

13

jurors to handle the gun, but not conduct any tests or experiments. 7 RT 1207-

14

09. The trial court responded to the jury’s question as follows: “No. Per

15

CALCRIM 201, ‘Do not conduct any tests or experiments.’ You may handle

16

the firearm but you may not dry-fire it.” 1 CT 69; 2 CT 467.

17

In Ground Four, Petitioner contends that the trial court’s refusal to

18

allow the jury to test fire the gun deprived him of due process and a fair trial.

19

Pet. at 6. Petitioner claims the prosecution introduced the gun issue into

20

evidence by arguing that the pressure required to fire the gun negated any self-

21

defense. According to Petitioner, the “jury needed to dry fire the gun to decide

22

if the ability to fire the gun negated [Petitioner’s] claim of self-defense/sudden

23

quarrel.” Pet. Mem. at 40. Petitioner argues that trial counsel rendered

24

ineffective assistance by objecting to the jury’s request. Id. at 44.

25

1.

26

On direct appeal, the California Court of Appeal concluded that the trial

The California Court of Appeal Decision

27

court did not abuse its discretion in prohibiting the test and any error was

28

harmless (Lodgment 5 at 15):
27

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 28 of 38 Page ID #:3014

The trial court properly could have allowed the jury to dry

1
2

fire the revolver to feel the trigger weight. The gun was admitted in

3

evidence, and nothing suggests the weapon was in a substantially

4

different condition at the time of trial than it was at the time the

5

expert tested it. But the court did not abuse its discretion in

6

prohibiting the test. Most significantly, the defense objected to the

7

testing, presumably for tactical reasons. [Petitioner] therefore

8

forfeited or invited any error. Finally, any conceivable error was

9

not prejudicial because the defense did not claim [Petitioner] fired

10

accidentally, and there was no evidence he did.

11

2.

12

Preliminarily, Respondent argues this claim is procedurally barred as

Analysis

13

Petitioner objected to allowing the jury to test fire the gun. Ans. Mem. at 19. In

14

the interest of judicial economy, the Court will address Petitioner’s claim on

15

the merits rather than consider the procedural default issue. Lambrix v.

16

Singletary, 520 U.S. 518, 524-25 (1997); Franklin v. Johnson, 290 F.3d 1223,

17

1232 (9th Cir. 2002) (“Procedural bar issues are not infrequently more complex

18

than the merits issues presented by the appeal, so it may well make sense in

19

some instances to proceed to the merits if the result will be the same.”).

20

Here, Petitioner has not cited, and the Court is not aware of, any clearly

21

established Supreme Court authority recognizing a due process violation

22

where the jury is prohibited from conducting tests or experiments during

23

deliberations. Rather, “[i]n the constitutional sense, trial by jury in a criminal

24

case necessarily implies at the very least that the ‘evidence developed’ against a

25

defendant shall come from the witness stand in a public courtroom where there

26

is full judicial protection of the defendant’s right of confrontation, of cross-

27

examination, and of counsel.” Turner v. Louisiana, 379 U.S. 466, 472-73

28

(1965); Bayramoglu v. Estelle, 806 F.2d 880, 887 (9th Cir. 1986) (“Jurors have
28

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 29 of 38 Page ID #:3015

1

a duty to consider only the evidence which is presented to them in open

2

court.”). Nor can Petitioner transform a state law issue into a federal one

3

merely by asserting a violation of due process. Langford v. Day, 110 F.3d

4

1380, 1389 (9th Cir. 1997) (as modified). It is immaterial that the Ninth Circuit

5

may have found jurors’ use of a magnifying glass did not constitute

6

misconduct. Trav. at 20-21 (citing United States v. George, 56 F.3d 1078, 1084

7

(9th Cir. 1995); United States v. Brewer, 783 F.2d 841, 843 (9th Cir. 1986)).

8

Neither case recognized a constitutional right to conduct juror experiments,

9

and the decision of a circuit court does not create clearly established Supreme

10

Court precedent. See Holley v. Yarborough, 568 F.3d 1091, 1097 (9th Cir.

11

2009) (“Circuit precedent may not serve to create established federal law on an

12

issue the Supreme Court has not yet addressed.”). In the absence of clearly

13

established law, the state court’s rejection of Petitioner’s claim was neither

14

contrary to, nor involved an unreasonable application of, clearly established

15

federal law, as determined by the United States Supreme Court. See Knowles,

16

556 U.S. at 122; Brewer, 378 F.3d at 955.

17

Additionally, as the court of appeal reasonable concluded, any error was

18

harmless. As the appellate court noted, Petitioner did not claim he fired the

19

gun accidentally and there was no evidence that he did. Lodgment 5 at 15.

20

Evidence showed that Petitioner pulled the gun out of his waistband and shot

21

Torres in the face. He then started to walk away, but then took a step back and

22

shot Torres again. 2 RT 240-41, 313, 359-60, 364-65.

23

The state court’s decision did not conflict with the reasoning or holdings

24

of Supreme Court precedent and did not apply harmless error review in an

25

objectively unreasonable manner. Mitchell v. Esparza, 540 U.S. 12, 17-18

26

(2003) (per curiam); Inthavong v. Lamarque, 420 F.3d 1055, 1058-59 (9th Cir.

27

2005); see also Davis v. Ayala, 576 U.S. –, 135 S. Ct. 2187, 2198-99 (2015).

28

Petitioner is not entitled to habeas relief on this claim.
29

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 30 of 38 Page ID #:3016

1

D.

2

Petitioner is Not Entitled to Relief on His Cumulative Error Claim
In Ground Five, Petitioner contends that the individual and cumulative

3

effect of the errors alleged in Grounds One through Four rendered his trial

4

fundamentally unfair. Pet. at 6; Pet. Mem. at 44-45. On direct appeal, the

5

California Court of Appeal rejected this claim, concluding that because it had

6

found no error, the cumulative error doctrine did not apply. Lodgment 5 at 16.

7

“[T]he combined effect of multiple trial errors may give rise to a due

8

process violation if it renders a trial fundamentally unfair, even where each

9

error considered individually would not require reversal.” Parle v. Runnels,

10

505 F.3d 922, 928 (9th Cir. 2007); see also United States v. Frederick, 78 F.3d

11

1370, 1381 (9th Cir. 1996). Here, however, none of Petitioner’s claims has

12

merit. Thus, the collective impact of the purported errors underlying those

13

claims could not have rendered Petitioner's trial fundamentally unfair. See

14

Hayes v. Ayers, 632 F.3d 500, 524 (9th Cir. 2011) (“Because we conclude that

15

no error of constitutional magnitude occurred, no cumulative prejudice is

16

possible.”). Accordingly, the state court’s rejection of this claim was neither

17

contrary to, nor involved an unreasonable application of, clearly established

18

federal law as determined by the United States Supreme Court. Petitioner is

19

not entitled to habeas relief on this claim.

20

E.

Petitioner is Not Entitled to Habeas Relief on His Ineffective

21

Assistance of Counsel Claim

22

In Ground Six, Petitioner asserts his trial counsel rendered ineffective

23

assistance by failing to investigate and present a trauma expert. Pet. at 6.1. He

24

argues such testimony would have proven that he acted from “an instinctual,

25

survival reaction and did not premeditate the killing,” and the jury would have

26

found him “not guilty of murder if the jury understood [his] state of mind

27

when Torres attacked him.” Pet. Mem. at 45.

28
30

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 31 of 38 Page ID #:3017

1

Petitioner submits the declaration of Kevin E. Booker, Ph. D., a licensed

2

clinical trauma psychologist. Pet. Mem., Exh. A. Dr. Booker opines that

3

Petitioner “acted in a manner consistent with an extreme fight-flight reaction

4

secondary to palpable, perceived fear for his life.” Id. ¶ 5. Dr. Booker attests

5

that the fight/flight syndrome “is a biologically-based phenomenon that

6

spontaneously and automatically activates when an individual perceives

7

palpable fear (involving a sense of terror, horror, or helplessness) and believes

8

that he or she could be seriously injured or killed.” Id. ¶ 9. He claims that after

9

Petitioner spoke with Torres and Torres punched him, causing him to fall to

10

the ground, Petitioner “subjectively experienced fear that led him to perceive

11

that his life was in danger.” According to Dr. Booker, Torres exacerbated

12

Petitioner’s fear when, after Petitioner stood up, Torres walked toward him to

13

confront him. Id. ¶ 16. This “perceived fear,” Dr. Booker explained, “would

14

have led to autonomic-nervous-system activation, causing an acute survival

15

response – ‘fight’ which ultimately overrode [Petitioner’s] rational decision-

16

making abilities.” Id. ¶ 17. Dr. Booker attests that Petitioner “reacted

17

instinctively to extinguish the threat” and “[o]nce the episode, and fight flight

18

system engaged, the ‘switch’ was activated and could not be consciously

19

deactivated.” Id. ¶ 18.

20

1.

Applicable Legal Authority

21

A petitioner claiming ineffective assistance of counsel must show that

22

counsel’s performance was deficient and that the deficient performance

23

prejudiced his defense. Strickland v. Washington, 466 U.S. 668, 687 (1984).

24

“Deficient performance” means unreasonable representation falling below

25

professional norms prevailing at the time of trial. Id. at 688-89. To show

26

deficient performance, the petitioner must overcome a “strong presumption”

27

that his lawyer “rendered adequate assistance and made all significant

28

decisions in the exercise of reasonable professional judgment.” Id. at 689-90.
31

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 32 of 38 Page ID #:3018

1

Further, the petitioner “must identify the acts or omissions of counsel that are

2

alleged not to have been the result of reasonable professional judgment.” Id. at

3

690. The court must then “determine whether, in light of all the circumstances,

4

the identified acts or omissions were outside the wide range of professionally

5

competent assistance.” Id.

6

To meet his burden of showing the distinctive kind of “prejudice”

7

required by Strickland, the petitioner must affirmatively “show that there is a

8

reasonable probability that, but for counsel’s unprofessional errors, the result of

9

the proceeding would have been different. A reasonable probability is a

10

probability sufficient to undermine confidence in the outcome.” Strickland,

11

466 U.S. at 694; see also Richter, 562 U.S. at 111 (“In assessing prejudice

12

under Strickland, the question is not whether a court can be certain counsel’s

13

performance had no effect on the outcome or whether it is possible a

14

reasonable doubt might have been established if counsel acted differently.”). A

15

court deciding an ineffective assistance of counsel claim need not address both

16

components of the inquiry if the petitioner makes an insufficient showing on

17

one. Strickland, 466 U.S. at 697.

18

In Richter, the Supreme Court reiterated that the AEDPA requires an

19

additional level of deference to a state-court decision rejecting an ineffective-

20

assistance-of-counsel claim: “The pivotal question is whether the state court’s

21

application of the Strickland standard was unreasonable. This is different from

22

asking whether defense counsel’s performance fell below Strickland’s

23

standard.” 562 U.S. at 101. The Supreme Court further explained:

24

Establishing that a state court’s application of Strickland was

25

unreasonable under § 2254(d) is all the more difficult. The

26

standards created by Strickland and § 2254(d) are both “highly

27

deferential,” and when the two apply in tandem, review is

28

“doubly” so. The Strickland standard is a general one, so the range
32

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 33 of 38 Page ID #:3019

1

of reasonable applications is substantial. Federal habeas courts

2

must guard against the danger of equating unreasonableness under

3

Strickland with unreasonableness under § 2254(d). When

4

§ 2254(d) applies, the question is not whether counsel’s actions

5

were reasonable. The question is whether there is any reasonable

6

argument that counsel satisfied Strickland’s deferential standard.

7
8
9

Id. at 105 (internal citations omitted).
Trial counsel’s failure to conduct a reasonable investigation and present
mitigating evidence may constitute ineffective assistance of counsel. See

10

Wiggins v. Smith, 539 U.S. 510, 521-22 (2003). Trial counsel “has a duty to

11

make reasonable investigations or to make a reasonable decision that makes

12

particular investigations unnecessary.” See Strickland, 466 U.S. at 691; see

13

also Sanders v. Ratelle, 21 F.3d 1446, 1456 (9th Cir. 1994) (“[C]ounsel must,

14

at a minimum, conduct a reasonable investigation enabling him to make

15

informed decisions about how best to represent his client.”). “[A] particular

16

decision not to investigate must be directly assessed for reasonableness in all

17

the circumstances, applying a heavy measure of deference to counsel’s

18

judgments.” Strickland, 466 U.S. at 691; see also Cox v. Del Papa, 542 F.3d

19

669, 679 (9th Cir. 2008); Reynoso v. Giurbino, 462 F.3d 1099, 1114 (9th Cir.

20

2006). “[A] lawyer who fails adequately to investigate and introduce . . .

21

[evidence] that demonstrate[s] his client’s factual innocence, or that raise[s]

22

sufficient doubt as to that question to undermine confidence in the verdict,

23

renders deficient performance.” See Duncan v. Ornoski, 528 F.3d 1222, 1234

24

(9th Cir. 2008) (alterations in original) (quoting Hart v. Gomez, 174 F.3d

25

1067, 1070 (9th Cir. 1999) (as amended)); Reynoso, 462 F.3d at 1112.

26

However, the relevant inquiry is not what could have been pursued, but

27

whether the choices made about what to pursue and what not to pursue were

28

reasonable. Siripongs v. Calderon, 133 F.3d 732, 736 (9th Cir. 1998).
33

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 34 of 38 Page ID #:3020

1

Complaints based upon uncalled witnesses are not favored in habeas

2

corpus petitions “because the presentation of witness testimony is essentially

3

strategic and thus within trial counsel’s domain, and that speculations as to

4

what these witnesses would have testified is too uncertain.” Alexander v.

5

McCotter, 775 F.2d 595, 602 (5th Cir. 1985); see also Lord v. Wood, 184 F.3d

6

1083, 1095 (9th Cir. 1999). As the Supreme Court has recognized, from the

7

perspective of a defense attorney preparing for trial, there are “any number of

8

hypothetical experts—specialists in psychiatry, psychology, ballistics,

9

fingerprints, tire treads, physiology, or numerous other disciplines and

10

subdisciplines—whose insight might possibly [be] useful.” Richter, 562 U.S. at

11

107. “Counsel [is] entitled to formulate a strategy that was reasonable at the

12

time and to balance limited resources in accord with effective trial tactics and

13

strategies.” Id. Even if expert testimony on a particular topic could support a

14

defense, a state court conclusion “that a competent attorney might elect not to

15

use it” could still be reasonable, particularly if such evidence would “increase[]

16

the likelihood of the prosecution producing its own evidence” on the topic,

17

evidence which could weaken the defense. Id. at 108. As a result, the Supreme

18

Court in Richter found that a state court did not unreasonably determine that a

19

defense attorney’s failure to call a rebuttal expert after the prosecution offered

20

expert testimony on a topic was not ineffective assistance. Id. at 790-91.

21

2.

Analysis

22

Petitioner bears the burden of proving trial counsel’s strategy was

23

deficient. Matylinsky v. Budge, 577 F.3d 1083, 1091 (9th Cir. 2009).

24

“Although courts may not indulge ‘post hoc rationalization’ for counsel’s

25

decisionmaking that contradicts the available evidence of counsel’s actions

26

[citation], neither may they insist counsel confirm every aspect of the strategic

27

basis for his or her actions.” Richter, 562 U.S. at 109. “[T]he presentation of

28
34

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 35 of 38 Page ID #:3021

1

expert testimony is not necessarily an essential ingredient of a reasonably

2

competent defense.” Bonin v. Calderon, 59 F.3d 815, 834 (9th Cir. 1995).

3

Here, Petitioner has not rebutted the strong presumption that counsel’s

4

decision was sound trial strategy. Strickland, 466 U.S. at 689-90 (“strategic

5

choices made after thorough investigation of law and facts relevant to plausible

6

options are virtually unchallengeable.”); Lord, 184 F.3d at 1095; Denham v.

7

Deeds, 954 F.2d 1501, 1505 (9th Cir. 1992) (holding that counsel was not

8

ineffective for deciding not to call alibi witness who would have done “more

9

harm than good”). Declining to call a witness, even an expert witness, is not in

10

and of itself unreasonable. See Richter, 562 U.S. at 107 (explaining that

11

“[c]ounsel was entitled to formulate a strategy that was reasonable at the time

12

and to balance limited resources in accord with effective trial tactics and

13

strategies”); Epsom v. Hall, 330 F.3d 49, 53 (1st Cir. 2003) (“Often, a weak

14

witness or argument is not merely useless but, worse than that, may detract

15

from the strength of the case by distracting from stronger arguments and

16

focusing attention on weaknesses”).

17

Petitioner argues trial counsel provided constitutionally deficient

18

representation by failing to call a trauma expert witness at trial, offering a brief

19

after-the-fact opinion by Dr. Booker who concludes, among other things, that

20

Petitioner “acted in a manner consistent with an extreme fight-flight reaction

21

secondary to palpable, perceived fear for his life.” Pet. Mem., Exh. A ¶ 5. The

22

argument fails.

23

A decision not to offer an opinion such as Dr. Booker’s is not

24

unreasonable for several reasons. First, Dr. Booker’s opinion is based, in part,

25

on Petitioner’s appellate counsel’s “statement of facts from her opening brief.”

26

Pet. Mem., Exh. A at ¶ 4. This reliance upon counsel’s version of events

27

creates two problems: (a) an expert’s reliance on counsel’s version of events in

28

forming an opinion would cast serious questions on both the basis for the
35

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 36 of 38 Page ID #:3022

1

opinion and the credibility of counsel; and (b) appellate counsel’s opening

2

appellate brief was obviously not in existence at the time of trial, making any

3

extrapolation of how Dr. Booker would have testified at the time of trial

4

speculative at best.

5

Second, Dr. Booker’s opinion relies upon a materially incomplete

6

record. For example, Dr. Booker states that “[t]he video shows [Petitioner] did

7

not initiate the altercation. The video shows that [Petitioner] approached the

8

decedent and spoke to him.” Pet. Mem., Exh. A at ¶ 6. However, the

9

testimony at trial demonstrated the Petitioner waited outside the location for

10

the victim to leave in order to approach the victim regarding his treatment of

11

Mendoza; lacking that information, Dr. Booker’s characterization of the video

12

as “show[ing Petitioner] did not initiate the altercation” does not tell the full

13

story and does so in a way trial counsel may not have wished to undertake.

14

Similarly, Dr. Booker recounts that Petitioner “shot the decedent twice” in

15

“one contiguous shooting. Even though two shots were fired. The number of

16

shots was inconsequential to the episode. Once the episode, and fight flight

17

system engaged, the ‘switch’ was activated and could not consciously be

18

deactivated.” Id. at ¶¶ 7, 18. However, Dr. Booker appears not to seriously

19

consider the trial testimony of Petitioner’s friend, Samuel Carcamo, that

20

Petitioner had started to leave after the first shot, but then stopped, stepped

21

back toward the fallen victim, and shot him again. 2 RT 359-60. That Dr.

22

Booker apparently did not account for these facts might not only cause a jury

23

to question his opinion, it could cause a jury to question the credibility of the

24

attorney calling him.

25

Third, offering the opinion of an expert such as Dr. Booker could have

26

had negative consequences for Petitioner. Calling such an expert would have

27

enabled the prosecutor to, through cross-examination, highlight again the

28

incriminating testimony against Petitioner. Further, calling such an expert
36

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 37 of 38 Page ID #:3023

1

would certainly have enabled the prosecution to call a rebuttal expert who

2

would have highlighted the choices Petitioner made, including the choice to,

3

after starting to walk away, to step back and fire a second fatal shot into the

4

prone victim, and, five days after the shooting, tell repeated false exculpatory

5

lies to police about the shooting.

6

Petitioner’s proffer of Dr. Booker’s brief opinion, which (1) did not exist

7

at the time of trial; (2) is based in part, appellate counsel’s recitations of facts

8

long after the trial was over; (3) does not take into account significant

9

incriminating evidence that was before the jury; and (4) would likely have

10

resulted in further inculpatory testimony by prosecution expert witnesses

11

highlighting the most damaging evidence against Petitioner, does not show

12

that trial counsel was constitutionally ineffective and does not show that the

13

state court’s rejection of such an argument was unreasonable. A reasonable

14

attorney could have made a strategic decision not to call such a witness,

15

choosing instead to make a similar argument about self-defense based on the

16

actual evidence (see RT 1151-54), without all of the risks associated with

17

offering testimony from an expert such as Dr. Brooks. See Richter, 562 U.S. at

18

108 (“An attorney need not pursue an investigation that would be fruitless,

19

much less one that might be harmful to the defense.”). Petitioner has not met

20

his burden under Strickland, considering the “strong presumption” that

21

counsel’s representation was within the “wide range” of reasonable

22

professional assistance. Nor has Petitioner overcome the “doubly” deferential

23

standard on federal habeas review to show the state court’s application of

24

Strickland was unreasonable.

25

Further, Petitioner has not demonstrated prejudice. In light of the

26

substantial evidence supporting the first degree murder conviction, it is not

27

“reasonably likely” the result would have been different. Richter, 562 U.S. at

28

111. The state court’s rejection of this claim was not “so lacking in justification
37

APPENDIX B

Case 8:19-cv-00487-JLS-JDE Document 22 Filed 11/25/19 Page 38 of 38 Page ID #:3024

1

that there was an error well understood and comprehended in existing law

2

beyond any possibility for fairminded disagreement.” Id. at 103. Petitioner is

3

not entitled to habeas relief on this claim.

4

F.

5

Petitioner is Not Entitled to an Evidentiary Hearing
Petitioner also requests an evidentiary hearing. Pet. Mem. at 5. The

6

Supreme Court has held that the AEDPA requires federal courts to review

7

state court decisions on the basis of the record before the state court.

8

Pinholster, 563 U.S. at 181-85. Moreover, an evidentiary hearing is not

9

warranted where, as here, “the record refutes the applicant’s factual allegations

10

or otherwise precludes habeas relief.” Schriro v. Landrigan, 550 U.S. 465, 474

11

(2007). “It is axiomatic that when issues can be resolved with reference to the

12

state court record, an evidentiary hearing becomes nothing more than a futile

13

exercise.” Totten v. Merkle, 137 F.3d 1172, 1176 (9th Cir. 1998). Here,

14

Petitioner’s claims can be resolved by reference to the state court record.

15

Accordingly, Petitioner’s request for an evidentiary hearing should be denied.

16

VII.

17

RECOMMENDATION

18

IT IS THEREFORE RECOMMENDED that the District Judge issue

19

an Order: (1) approving and accepting this Report and Recommendation; (2)

20

denying Petitioner’s request for an evidentiary hearing; and (3) directing that

21

Judgment be entered denying the Petition and dismissing this action with

22

prejudice.

23

Dated: November 25, 2019 __

______________________________
JOHN D. EARLY
United States Magistrate Judge

24
25
26
27
28
38

APPENDIX B

APPENDIX C

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). The opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
THE PEOPLE,
Plaintiff and Respondent,

G052613
(Super. Ct. No. 13WF0932)

v.
LEOBARDO VALLADARES,

OPINION

Defendant and Appellant.

Appeal from a judgment of the Superior Court of Orange County, James A.
Stotler, Judge. Affirmed.
Fay Arfa, under appointment by the Court of Appeal, for Defendant and
Appellant.
Kamala D. Harris and Xavier Becerra, Attorneys General, Gerald A.
Engler, Chief Assistant Attorney General, Julie L. Garland, Assistant Attorney General,
Peter Quon, Jr., and Randall D. Einhorn, Deputy Attorneys General, for Plaintiff and
Respondent.
*

*

*

APPENDIX C

A jury convicted Leobardo Valladares of premediated and deliberate first
degree murder (Pen. Code, § 187, subd. (a); all statutory citations are to the Penal Code),
and found he personally discharged a firearm causing death (§ 12022.53, subd. (d)).
Valladares challenges the sufficiency of the evidence to support his first degree murder
conviction. He also contends the trial court erred by instructing the jury with CALCRIM
Nos. 3472 and 3474, erred by failing to provide a unanimity instruction, erred by refusing
to allow the jury to test fire the firearm, and the cumulative effect of the errors rendered
his trial unfair. We conclude these contentions lack merit and therefore affirm the
judgment.
I
FACTUAL AND PROCEDURAL BACKGROUND
On the evening of September 14, 2013, Maria Huerta arranged to meet her
friend Valladares at a Stanton bar where they met weekly to drink and listen to music.
Valladares, a regular patron of the bar, was friendly and respected by the waitresses and
other staff.
When Huerta arrived, Valladares stood in front of the bar talking to friends.
After about 30 minutes, Huerta and Valladares walked inside. They each consumed six
beers over the next two hours. Huerta did not feel intoxicated or “buzzed,” and
Valladares did not appear intoxicated.
According to Huerta, around the 2:00 a.m. closing time, a waitress who
knew Valladares complained to him that Francisco Torres was being rude and
disrespectful to her. The waitress, Azucena Mendoza, testified she knew Vallardares as a
regular of the bar. At some point during the evening, she was walking and holding beer
bottles when Torres, who had been sitting at the bar, got up, grabbed her elbow or bicep,
and asked her to bring him a beer. When he pulled on her arm, she thought he was going
to fall. He also wanted her to sit and have a drink with him. Mendoza declined to get
Torres another beer because he was drunk. He insulted her, called her names, and said
2

APPENDIX C

she was a “whore.” A security guard intervened and Mendoza walked over to
Valladares’s table to calm down. She told Valladares, who did not appear intoxicated,
what happened, pointed Torres out and described how Torres had frightened and insulted
her.
A few minutes later, Huerta, Valladares, Mendoza and another waitress
exited the bar, where they spoke for about a minute. At some point, Valladares said he
was going to talk to Torres about disrespecting Mendoza. Mendoza, who returned to the
bar, may have told him not to do it, and not to get involved. Huerta and Valladares
remained outside chatting with others who emerged, and smoking cigarettes.
Huerta testified when Torres exited the bar, Valladares told Huerta, “wait
for me here. I’m going to go talk to him.” Valladares did not seem agitated. Torres
walked out of the bar alone and down the sidewalk in front of an adjacent laundromat.
Valladares followed Torres.
When Valladares caught up to Torres the men began arguing. Torres
shoved Valladares against a glass window and Valladares fell to the ground. Valladares
got up after Torres shoved him, and attempted to shove Torres back, but Torres moved
out of the way. Torres approached Valladares in a fighting or defensive stance.
Valladares then pulled out a gun from his belt area, pointed it at Torres’s face, and fired
from about 12 inches away. Torres fell down lying face up. Valladares shot Torres in
the chest, put the gun in his waistband, and took off running.
Huerta testified she heard only one shot, but told a police officer a day after
the incident she thought she heard two shots. She saw Valladares’s hand shake or “pull
back” twice. The second time was within a split second of the first; there was no “pause
in between seeing his hand shake the first time and the second time.” Huerta described
the gun as a “gold, brown” revolver.
Surveillance video showed Valladares and Huerta standing by the door
around 1:50 a.m., chatting, smoking, and interacting with various people who emerged
3

APPENDIX C

from the bar. Valladares moved over to a planter area and continued to smoke and
conversed with various men. At about 1:54 a.m., Valladares walked over to the bar door
as Torres emerged. Valladares followed Torres as he walked north along the sidewalk
abutting the bar and other businesses in the strip mall. The men conversed or argued for
about 20 seconds, during which Valladares gestured back toward the bar. Suddenly,
Torres punched or shoved Valladares, who stumbled backward and out of the frame.
Torres approached Valladares with his hands raised in a fighting position. Valladares
regained his footing and the men threw a few punches at each other as Valladares danced
around. Although the video does not clearly show this part of the incident, Valladares
removed his gun and shot Torres, who fell on his back with his head hanging off the curb.
Valladares walked quickly away after the shooting, followed by Huerta.
The evidence established Valladares fired two rounds, one striking Torres
in the left eye, and another striking him in the middle right side of the chest. The injury
to the eye had stippling, or unburned gunpowder, around the entry point, suggesting the
gun had been fired at close range. Both wounds were fatal, and Torres bled to death.
Less than nine seconds had elapsed since Torres punched or shoved Valladares.
Investigators found no weapons on or around Torres’s body, and Torres did not have cuts
or bruises on his hands. Torres’s blood alcohol content registered at 0.20 percent.
Samuel Carcamo, who knew Valladares from the bar, testified Valladares
pulled out the gun, pointed it at Torres’s forehead, and fired. Torres went down.
Valladares started to walk away, but then “took a step back, and . . . shot [Torres] again,”
this time in the stomach.
Investigators found Valladares’s broken cell phone on the ground near
Torres’s body. Four days after the shooting, deputies arrested Valladares at a relative’s
home. Interviewed at the sheriff’s department, Valladares denied having a gun or
shooting Torres, even after investigators showed him surveillance video and told him
witnesses identified him as the shooter. He explained he walked toward some people
4

APPENDIX C

near the video store when he saw people arguing. A man he did not know said “what” to
him, and he replied, “what’s up?” The man struck him, causing him to hit the window
and fall down, dropping his cell phone. He denied seeing the person previously in the
bar. “Somebody fired,” a gun, but he did not know who, and he saw someone “laying
there.” He walked to a friend’s home because he did not want problems with the police,
as he previously had been deported. Valladares claimed he had six beers before he
arrived at the bar, two more at the bar, and was “a little drunk.”
Following a trial in July 2015, the jury convicted Valladares as noted
above. In September 2015, the court imposed a prison sentence of 50 years to life,
comprised of a term of 25 years to life for first degree murder, and a consecutive term of
25 years to life for personally discharging a firearm causing death.
II
DISCUSSION
A.

Substantial Evidence Supports the Jury’s Verdict of First Degree Premeditated

Deliberate Murder
Valladares contends the judgment should be modified to reflect a
conviction for second degree murder rather than first degree murder because insufficient
evidence supported the jury’s conclusion defendant acted with premeditation and
deliberation. Because the evidence showed that Torres threw the first punch in a
spontaneous fistfight, knocking Valladares to the ground, and again approached
Valladares to resume his assault, Valladares contends the prosecution failed to prove he
premeditated and deliberated the murder. We conclude the evidence as a whole supports
the jury’s verdict.
On appeal, we review the whole record in the light most favorable to the
judgment below to determine whether it discloses substantial evidence – that is, evidence
that is reasonable, credible, and of solid value – from which a reasonable trier of fact
could find the defendant guilty beyond a reasonable doubt. (People v. Johnson (1980)
5

APPENDIX C

26 Cal.3d 557, 578; see also Jackson v. Virginia (1979) 443 U.S. 307, 317-320.) The test
is whether substantial evidence supports the trier of fact’s conclusion, not whether the
appellate court would make the same determination. (People v. Crittenden (1994)
9 Cal.4th 83, 139.) Because an appellate court must “give due deference to the trier of
fact and not retry the case ourselves,” an appellant challenging the sufficiency of the
evidence “bears an enormous burden.” (People v. Sanchez (2003) 113 Cal.App.4th 325,
330.)
Murder is the unlawful killing of a human being with malice aforethought.
(§ 187, subd. (a).) Murder that is “willful, deliberate, and premeditated . . . is murder of
the first degree. All other kinds of murders are of the second degree.” (§ 189.) By
dividing the offense of murder into two degrees, the Legislature attached greater moral
culpability for deliberate and preconceived murders. (People v. Bender (1945) 27 Cal.2d
164, 181 (Bender) [Legislature intended to “distinguish between deliberate acts and hasty
or impetuous acts”] overruled on other grounds in People v. Lasko (2000) 23 Cal.4th 101,
110; People v. Holt (1944) 25 Cal.2d 59, 90-91.)
Premeditation “encompasses the idea that a defendant thought about or
considered the act beforehand.” (People v. Pearson (2013) 56 Cal.4th 393, 443.)
Deliberation “‘“refers to careful weighing of considerations in forming a course of
action.”’” (Ibid.) “The word ‘deliberate’ is an antonym of ‘Hasty, impetuous, rash,
impulsive’ [citation] and no act or intent can truly be said to be ‘premeditated’ unless it
has been the subject of actual deliberation or forethought.” (People v. Thomas (1945)
25 Cal.2d 880, 901.) To find a person guilty of deliberate premeditated murder the
evidence must show the defendant’s acts were the result of careful thought and weighing
of considerations rather than an unconsidered or rash impulse. (People v. Banks (2014)
59 Cal.4th 1113, 1153, overruled on other grounds in People v. Scott (2015) 64 Cal.4th
363, 391, fn. 3.) The Legislature applied the “common, well-known dictionary meaning”
to the words “‘deliberate’” and “‘premeditate.’” (Bender, supra, 27 Cal.2d at p. 183.)
6

APPENDIX C

Accordingly, the court explained “[t]he adjective ‘deliberate’ means ‘formed, arrived at,
or determined upon as a result of careful thought and weighing of considerations; as a
deliberate judgment or plan; carried on coolly and steadily, esp. according to a
preconceived design; . . . Given to weighing facts and arguments with a view to a choice
or decision; careful in considering the consequences of a step; . . . unhurried; . . .
Characterized by reflection; dispassionate; not rash.’” (Ibid.)
The time taken to deliberate on a plan or course of action varies among
individuals. The focus, however, is on “‘the extent of the reflection,’” not the time it took
before deciding to act. (People v. Solomon (2010) 49 Cal.4th 792, 813.) “‘“‘“‘Thoughts
may follow each other with great rapidity and cold, calculated judgment may be arrived
at quickly.’”’”’” (People v. Mendoza (2011) 52 Cal.4th 1056, 1069.) Juries must
determine whether a defendant premeditated and deliberated in “the interval between the
fully formulated intent and its execution.” (Bender, supra, at p. 182.) To prove a
defendant premeditated and deliberated the consequences of his action, there must be
“substantially more reflection than may be involved in the mere formation of a specific
intent to kill.” (People v. Thomas, supra, 25 Cal.2d at p. 900, italics added.)
As explained in People v. Anderson (1968) 70 Cal.2d 15 (Anderson),
“Given the presumption that an unjustified killing of a human being constitutes murder of
the second, rather than of the first, degree, and the clear legislative intention to
differentiate between first and second degree murder, [a reviewing court] must determine
in any case of circumstantial evidence whether the proof is such as will furnish a
reasonable foundation for an inference of premeditation and deliberation [citation], or
whether it ‘leaves only to conjecture and surmise the conclusion that defendant either
arrived at or carried out the intention to kill as the result of a concurrence of deliberation
and premeditation.’” (Id. at p. 25.)
Anderson addressed this problem by providing guidelines for the type of
evidence which would sustain a finding of premeditation and deliberation, noting the
7

APPENDIX C

evidence “falls into three basic categories: (1) facts about how and what defendant did
prior to the actual killing which show that the defendant was engaged in activity directed
toward, and explicable as intended to result in, the killing – what may be characterized as
‘planning’ activity; (2) facts about the defendant’s prior relationship and/or conduct with
the victim from which the jury could reasonably infer a ‘motive’ to kill the victim, which
inference of motive, together with facts of type (1) or (3), would in turn support an
inference that the killing was the result of ‘a pre-existing reflection’ and ‘careful thought
and weighing of considerations’ rather than ‘mere unconsidered or rash impulse hastily
executed’ [citation]; (3) facts about the nature of the killing from which the jury could
infer that the manner of killing was so particular and exacting that the defendant must
have intentionally killed according to a ‘preconceived design’ to take his victim’s life in a
particular way for a ‘reason’ which the jury can reasonably infer from facts of type (1) or
(2). [¶] Analysis of the cases will show that this court sustains verdicts of first degree
murder typically when there is evidence of all three types and otherwise requires at least
extremely strong evidence of (1) or evidence of (2) in conjunction with either (1) or (3).”
(Anderson, supra, 70 Cal.2d at pp. 26-27.)
Here, sufficient evidence supports Valladares’s first degree murder
conviction. The jury reasonably could conclude Valladares’s motive in killing Torres
was retribution for his earlier misbehavior toward the waitress, who was Valladares’s
friend. The record also supports an inference Valladares acted to uphold his reputation in
the bar as a respected person who could solve problems and vindicate slights. When
Torres struck defendant and knocked him to the ground outside the bar, the jury
reasonably could conclude Valladares was motivated to shoot Torres to address or
remedy the damage to his reputation if he were to lose this fight. Consequently, he shot
Torres in the head and as the prosecutor argued, “turned back to finish the job” by
shooting Torres in the chest to avenge Torres’s disrespectful and rude conduct to him and
to those in the bar.
8

APPENDIX C

The record also contains planning evidence. Valladares waited outside the
bar with a loaded revolver concealed in his waistband and followed Torres to confront
him about his conduct inside the bar. He would have known this might provoke an
argument with the intoxicated Torres, and lead to a violent confrontation. But he
prepared himself to respond with deadly force. As the prosecutor argued, Valladares
“chased [Torres] down knowing he had a revolver in his waistband.” The jury could
conclude Valladares planned a murder by concealing the gun and intending to use it if he
was losing the fight.
The evidence also showed the manner of the killing was particular and
exacting, which supports a finding Valladares had planned the killing. As noted,
Valladares fired once into Torres’s left eye, and then into the victim’s chest as he lay on
the ground. The jury reasonably could conclude Valladares carried out the killing coolly
and steadily, with cold, calculated judgment akin to an execution-style murder. (See
People v. Hawkins (1995) 10 Cal.4th 920, 956-957 [evidence showed victim kneeling or
crouching when the defendant fired two shots to the victim’s head from a distance of
three to 12 inches], overruled on other grounds in People v. Lasko (2000) 23 Cal.th 101,
110.) The exacting nature of the killing supports the jury’s finding Valladares considered
the consequences of his actions either before he confronted Torres or during the
argument. We therefore reject Valladares’s challenge to the sufficiency of the evidence
for first degree murder.
B.

The Trial Court Properly Instructed the Jury
Valladares argues the trial court erred and violated his right to due process

by instructing with CALCRIM Nos. 3472 and 3474. CALCRIM No. 3472 provided: “A
person does not have the right to self-defense if he or she provokes a fight or quarrel with
the intent to create an excuse to use force.” CALCRIM No. 3474 provided: “The right to
use force in self-defense continues only as long as the danger exists or reasonably appears

9

APPENDIX C

to exist. When the attacker no longer appears capable of inflicting any injury, then the
right to use force ends.”
Valladares asserts the evidence failed to support the instructions because he
did not provoke a fight or quarrel with the intent to create an excuse to use force. He also
asserts CALCRIM No. 3472 applies to someone who starts a physical attack and not
someone who starts a verbal argument. He further argues the evidence “failed to justify
CALCRIM No. 3474 because the danger from Torres never [dissipated]. Valladares’
right of self-defense continued during both shots, not just the first shot as the prosecutor
argued.”1
We discern no error. The jury instructions at issue were correct statements
of the law, and substantial evidence supported giving them. (People v. Breverman (1998)
19 Cal.4th 142, 154 [the trial court must instruct sua sponte on the general principles of
law relevant to the issues raised by the evidence].) Valladares followed Torres with a
concealed loaded revolver and the evidence supported the inference he did so to provoke
an argument with him. If the jury found he contrived a verbal argument (a “quarrel”)
with the intent to provoke Torres to use force, so that he could then shoot him, the jury
properly could find he did not have the right to self-defense. (People v. Hecker (1895)
109 Cal. 451, 462 [self-defense is not available where the defendant seeks a quarrel “with
the design to force a deadly issue and thus, through his fraud, contrivance, or fault, to
create a real or apparent necessity for killing”]; cf. People v. Ramirez (2015)
233 Cal.App.4th 940, 943 (Ramirez) [person who contrives to start a fistfight or provoke
a nondeadly quarrel does not forfeit his right to live and may defend himself when his
opponent escalates the conflict to deadly force].)

The Attorney General notes a portion of Valladares’s argument appears to
relate to CALCRIM No. 3471, an instruction dealing with mutual combat that was not
given.
1

10

APPENDIX C

Here, unlike in Ramirez, where the defendant testified he saw the victim
draw a gun, no evidence suggested Torres resorted to lethal force. Consequently, the trial
court had no sua sponte duty to modify the instruction accordingly. (Bench Note to
CALCRIM No. 3472 (2017 ed.) p. 987 [“This instruction may require modification in the
rare case in which a defendant intends to provoke only non-deadly confrontation and the
victim responds with deadly force”], italics added.) When the victim does not respond, or
appear to respond, with unjustified deadly force, CALCRIM No. 3472 accurately states
the law and requires no modification. (People v. Eulian (2016) 247 Cal.App.4th 1324,
1334.) If Valldares desired further clarifying or pinpoint instructions, it was his duty to
request them. (People v. Hart (1999) 20 Cal.4th 546, 622.)
Assuming the jury found Valladares initially acted in self-defense,
CALCRIM No. 3474 allowed the jury to determine whether Valladares could continue to
defend himself because Torres still posed a deadly threat to him. As the trial court noted,
the jury was entitled to determine whether Torres was still alive and “disabled” after the
first shot, and whether any danger from Torres no longer existed. Finally, the
instructions did not negate a self-defense theory. The court instructed on justifiable
homicide: self-defense (CALCRIM No. 505), provocation: effect on degree of murder
(CALCRIM No. 522); voluntary manslaughter: heat of passion – lesser included offense
(CALCRIM No. 570), and voluntary manslaughter: imperfect self-defense – lesser
included offense (CALCRIM No. 571). Nothing in CALCRIM Nos. 3472 and 3474
precluded the jury from finding Valladares had an honest but unreasonable belief in the
need for self-defense. Nor did the instructions prevent the jury from finding defendant
acted with adequate provocation or returning a voluntary manslaughter verdict.
C.

Unanimity Instruction
The evidence demonstrated Valladares fired two shots in rapid succession.

Both wounds were fatal and the coroner could not determine which shot occurred first.
Valladares asserts the jury could have found Torres already was dead when Valladares
11

APPENDIX C

fired the second shot, and could have found he did not premeditate and deliberate
Torres’s murder when he fired the first shot, but did when he fired the second shot. He
contends the trial court should have provided a unanimity instruction “to insure the jury
unanimously decided which shot killed Torres.” (See CALCRIM No. 3500 [“The
defendant is charged with [] . The People have presented evidence of more than one act
to prove that the defendant committed this offense. You must not find the defendant
guilty unless you all agree that the People have proved that the defendant committed at
least one of these acts and you all agree on which act (he/she) committed.”].)
“Where the accusatory pleading charges a single criminal offense and the
evidence shows more than one such unlawful act [which may have constituted the
offense] was committed, [then] either the prosecution must elect the specific act relied
upon to prove the charge or the jury must be instructed . . . that it must unanimously
agree beyond a reasonable doubt that defendant committed the same specific criminal
act.” (People v. Martinez (1988) 197 Cal.App.3d 767, 772; People v. Diedrich (1982)
31 Cal.3d 263, 281 [purpose of unanimity instruction is to require agreement among the
jurors as to the act or acts which would support a conviction for the charged offense];
People v. Deletto (1983) 147 Cal.App.3d 458, 471-472 [possibility of disagreement exists
where the defendant is accused of a number of unrelated incidents leaving the jurors free
to believe different parts of the testimony and yet convict the defendant].) The trial court
must give a unanimity instruction sua sponte where the facts require it. (People v. Davis
(2005) 36 Cal.4th 510, 561.)
The “‘continuous conduct exception’” is a limited exception to the
unanimity requirement. “[N]o unanimity instruction is required when the acts alleged are
so closely connected as to form part of one continuing transaction or course of criminal
conduct. ‘The “continuous conduct” rule applies when the defendant offers essentially
the same defense to each of the acts, and there is no reasonable basis for the jury to
distinguish between them.’ [Citations.]” (People v. Dieguez (2001) 89 Cal.App.4th 266,
12

APPENDIX C

275.) In other words, where there is no evidence from which the jury could have found
the defendant guilty of one act, but not the other, such as where different defenses are
asserted as to each, there is no danger that different jurors would find the defendant
guilty of different acts. (People v. Riel (2000) 22 Cal.4th 1153, 1199 (Riel).)
Here, there is no basis to distinguish between Valladares’s two gunshots.
Valladares’s acts in firing two successive shots were substantially identical in nature.
Under these circumstances, there simply is no danger that different jurors would find
Valladares guilty of different acts. “‘[W]here the acts were substantially identical in
nature, so that any juror believing one act took place would inexorably believe all acts
took place, the instruction is not necessary to the jury’s understanding of the case.’”
(People v. Beardslee (1991) 53 Cal.3d 68, 93.)
The jury rejected the only defense (self-defense) offered. (See People v.
Stankewitz (1990) 51 Cal.3d 72, 100 [unanimity instruction not required where defendant
offers essentially same defense to each act and no reasonable basis for jury to distinguish
between them].) Valladares did not proceed on the theory he fired the second shot into a
dead body, and thus could only have been guilty of murder if he premeditated and
deliberated the first shot. Regardless, any conceivable error was harmless. (Chapman v.
California (1967) 386 U.S. 18, 24; People v. Watson (1956) 46 Cal.2d 818, 836.) The
jury unanimously agreed Valladares intended to kill Torres and acted with premeditation
and deliberation. There was no reasonable possibility a juror would have found
Valladares did not premeditate and deliberate by firing the first shot but that he did so
during the second shot.
D.

Refusal to Allow Jury to Test Revolver
During closing argument, the prosecutor emphasized Valladares took a

loaded revolver with him when he went to the bar and invited the jury to “feel the weight
of this firearm.” She also noted, referring to expert testimony, that “to pull the trigger [in
double action mode] you have to actually apply eight and a half to nine pounds to get that
13

APPENDIX C

gun to fire.” She noted the expert tested the gun to make sure it would not go off
accidentally, and that “everything about this tells you this was not an accident. It was a
deliberate point and pull both times.”
During deliberations, the jury sent a note to the court asking to “dry-fire the
pistol to feel actual trigger pressure?” The prosecutor had no objection but thought “we
could be getting close to an experiment.” Defense counsel objected: “It seems to me that
it is an experiment as far as the pounds of pressure it takes to fire the weapon. And it
seems like they just want to conduct their own experiment.” Defense counsel even
“object[ed] to them holding the gun. I mean it’s put in evidence. They can look at the
gun. . . . But as far as the weight of the gun, test-firing, dry test firing the gun, I think that
all goes to . . . conducting experiments on that gun as far as the weight and amount of
pressure it takes to pull that trigger.”
The trial court declined to allow the jury to dry fire the revolver. The court
primarily relied on defendant’s objection, and also noted “I can see some problems with
allowing this. Let’s assume for instance they find just by the pulling of the trigger that
the pressure does not seem to comport with what the witness said, then all of a sudden
we’re into speculation because we don’t have any . . . weighing device.” The court
declined to prohibit the jury from touching or holding the gun. The court answered the
jury’s question: “No. Per CALCRIM 201, ‘Do not conduct any tests or experiments.’
You may handle the firearm but you may not dry-fire it.” The court also allowed the
bailiff to remove the gun lock, which was not on the revolver when it was presented in
court.
“[J]urors may, as a body, ‘engage in experiments which amount to no more
than a careful evaluation of the evidence which was presented at trial.’ . . . [¶] The
distinction usually turns on whether the juror’s investigation stayed within the parameters
of admitted evidence or created new evidence, which the injured party had no opportunity
to rebut or question. . . . ‘Not every jury experiment constitutes misconduct. Improper
14

APPENDIX C

experiments are those that allow the jury to discover new evidence by delving into areas
not examined during trial. The distinction between proper and improper jury conduct
turns on this difference. The jury may weigh and evaluate the evidence it has received.
It is entitled to scrutinize that evidence, subjecting it to careful consideration by testing
all reasonable inferences. It may reexamine the evidence in a slightly different context as
long as that evaluation is within the ‘“scope and purview of the evidence.”’ [Citation.]
What the jury cannot do is conduct a new investigation going beyond the evidence
admitted.’ [Citation.]” (People v. Vigil (2011) 191 Cal.App.4th 1474, 1484].)
Cases finding no misconduct include those where jurors employed their
own reasoning skills in a demonstrative manner or performed tests in the jury room that
were confined to the evidence admitted at trial. (See People v. Collins (2010) 49 Cal.4th
175, 250-252 [no misconduct when jurors used string and a protractor to reenact various
alternative positions of victim and defendant according to the evidence and drew a scaled
diagram based on the evidence for use in deliberations]; People v. Bogle (1995)
41 Cal.App.4th 770, 778 [jurors used keys to open a safe, both items admitted into
evidence, not misconduct].)
The trial court properly could have allowed the jury to dry fire the revolver
to feel the trigger weight. The gun was admitted in evidence, and nothing suggests the
weapon was in a substantially different condition at the time of trial than it was at the
time the expert tested it. But the court did not abuse its discretion in prohibiting the test.
Most significantly, the defense objected to the testing, presumably for tactical reasons.
Valladares therefore forfeited or invited any error. Finally, any conceivable error was not
prejudicial because the defense did not claim Valladares fired accidentally, and there was
no evidence he did.
E.

Cumulative Error
Valladares argues multiple errors combined to violate his due process right

to a fair trial. (See People v. Hill (1998) 17 Cal.4th 800, 844-845 [multiple trial errors
15

APPENDIX C

independently harmless may in combination create reversible error].) As explained
above, we have found no error. The cumulative error doctrine therefore does not apply.
III
DISPOSITION
The judgment is affirmed.

ARONSON, J.
WE CONCUR:

O’LEARY, P. J.

THOMPSON, J.

16

APPENDIX C

